<html>
<title> - IRAQ: TRENDS AND RECENT SECURITY DEVELOPMENTS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





                         [H.A.S.C. No. 110-72]
 
             IRAQ: TRENDS AND RECENT SECURITY DEVELOPMENTS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 18, 2007



[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]





                   U.S. GOVERNMENT PRINTING OFFICE
38-837 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001








                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                         IKE SKELTON, Missouri
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        JO ANN DAVIS, Virginia
ROBERT ANDREWS, New Jersey           W. TODD AKIN, Missouri
SUSAN A. DAVIS, California           J. RANDY FORBES, Virginia
RICK LARSEN, Washington              JEFF MILLER, Florida
JIM COOPER, Tennessee                JOE WILSON, South Carolina
JIM MARSHALL, Georgia                FRANK A. LoBIONDO, New Jersey
MADELEINE Z. BORDALLO, Guam          TOM COLE, Oklahoma
MARK UDALL, Colorado                 ROB BISHOP, Utah
DAN BOREN, Oklahoma                  MICHAEL TURNER, Ohio
BRAD ELLSWORTH, Indiana              JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  CANDICE S. MILLER, Michigan
PATRICK J. MURPHY, Pennsylvania      PHIL GINGREY, Georgia
HANK JOHNSON, Georgia                MIKE ROGERS, Alabama
CAROL SHEA-PORTER, New Hampshire     TRENT FRANKS, Arizona
JOE COURTNEY, Connecticut            BILL SHUSTER, Pennsylvania
DAVID LOEBSACK, Iowa                 THELMA DRAKE, Virginia
KIRSTEN GILLIBRAND, New York         CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             K. MICHAEL CONAWAY, Texas
GABRIELLE GIFFORDS, Arizona          GEOFF DAVIS, Kentucky
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                   Margee Meckstroth, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 18, 2007, Iraq: Trends and Recent Security 
  Developments...................................................     1

Appendix:

Wednesday, July 18, 2007.........................................    51
                              ----------                              

                        WEDNESDAY, JULY 18, 2007
             IRAQ: TRENDS AND RECENT SECURITY DEVELOPMENTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Kagan, Dr. Frederick W., Resident Scholar, American Enterprise 
  Institute......................................................    11
Mathews, Dr. Jessica T., President, Carnegie Endowment for 
  International Peace............................................     7
Perry, Dr. William J., Co-Director, Preventive Defense Project, 
  Center for International Security Cooperation, Stanford 
  University.....................................................     4

                                APPENDIX

Prepared Statements:

    Kagan, Dr. Frederick W.......................................    75
    Mathews, Dr. Jessica T.......................................    55
    Perry, Dr. William J.........................................    66

Documents Submitted for the Record:

    List of Notional Political Timeline, dating from September 
      2006 to March 2007.........................................    91
    Map of the Locations of the Major Iraqi Army and National 
      Police Divisions submitted by Dr. Frederick W. Kagan.......    92

Questions and Answers Submitted for the Record:

    Mr. Loebsack.................................................    95
             IRAQ: TRENDS AND RECENT SECURITY DEVELOPMENTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 18, 2007.
    The committee met, pursuant to call, at 10:12 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The committee will come to order. And before 
we welcome our witnesses, I have a very sad announcement that 
former General Wayne Downing, the former commander of Special 
Operations Command (SOCOM), died yesterday suddenly of 
meningitis, and a good friend of all of ours through the years, 
and I ask that we have a moment of silence and respect the 
memory of General Wayne Downing, please.
    [Moment of silence.]
    The Chairman. Thank you very much. Today our committee 
gathers to conduct another hearing on the ongoing war in Iraq. 
This series of hearings, which will continue through this month 
and into September, all are designed to look at the American 
national security interests in the Middle East and Iraq and 
what strategy might best safeguard those interests while 
allowing for the reset of our military to be prepared for 
challenges elsewhere.
    We are fortunate to have with us three well-respected 
experts to share their views on Iraq on where we should go from 
here: Dr. William Perry, the former Secretary of Defense and 
member of the Iraq Study Group; Dr. Jessica Tuchman Mathews, 
the President of the Carnegie Endowment for International 
Peace; and Dr. Frederick Kagan, Resident Scholar at the 
American Enterprise Institute. And we welcome each of you and 
thank you for appearing with us to discuss the trends regarding 
Iraq.
    The last two weeks have seen several major developments in 
the political discussion about the way forward in Iraq. Last 
week the President issued the interim report on progress made 
by the Government of Iraq toward meeting the benchmarks 
included in the recent Supplemental Appropriations Act. The 
interim report showed little or no progress made toward 
reconciliation in Iraq. The report judged satisfactory progress 
on only 8 of 18 benchmarks, even though most of the political 
benchmarks were approved by the Iraqi Political Committee on 
National Security, a body that includes the President of Iraq, 
Vice Presidents, the leaders of major political parties, and 
reaffirmed by the Iraqi President of the Council last fall.
    I might also mention that based on unofficial translation, 
that group approved 16 benchmarks called ``Notational Political 
Timeline'' dating from September 2006 to March 2007. And, 
without objection, I will place this list in the record.
    [The information referred to can be found in the Appendix 
on page 91.]
    The Chairman. Further, a realistic reading of the report 
shows that even on most of those benchmarks rose claim that the 
Iraqis were making satisfactory progress. The progress was at 
best incremental and could not provide a reliable indication 
that the benchmarks could actually be achieved either by the 
time of the September report or in the foreseeable future. The 
only exception to this conclusion were two benchmarks that were 
actually achieved by the Iraqis before either the President or 
Congress established benchmarks.
    Last week, not long after the interim report was issued, 
the House of Representatives passed H.R. 2956, the Responsible 
Redeployment from Iraq Act. This bill passed by a bipartisan 
vote, and it would require the President to begin a 
redeployment of U.S. forces from Iraq and would mandate that 
the transition to a more limited set of missions in Iraq be 
complete by April of next year. It would also require a 
comprehensive diplomatic, political, economic strategy in which 
these limited missions could be undertaken.
    I introduced this bill because I believe that we are doing 
a real harm to our military by following a failed policy in 
Iraq, and that by blindly pursuing the President's latest 
strategy, we are accepting too much strategic risk.
    The third recent development was release of the 
unclassified key judgments from the National Intelligence 
Estimate on the terrorist threat to our country. The NIE 
confirms what I feared for some time now; that while our forces 
have been tied down in Iraq, al Qaeda has been rebuilding its 
strength in the border regions of Pakistan and Afghanistan.
    Iraq has proven to be a distraction from the war on those 
who attacked us on September the 11th. I believe we must move 
to a more limited presence in Iraq so we can dedicate more 
resources toward finally eliminating al Qaeda and posturing our 
forces to deal with future strategic threats.
    Again, I would like to thank our witnesses, our outstanding 
witnesses today, for appearing before us. I hope they will 
address their views to the current developments and trends in 
Iraq and share their thoughts on where we go from here.
    Now our Ranking Member, my good friend Duncan Hunter, would 
you make your comments please?

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thanks for teeing 
this hearing up today. I think it is very timely. Gentlemen, 
and ma'am, thank you for being with us today and sharing your 
thoughts with us.
    We have all watched or seen this interim report and seen 
the ranking and the grading that the Administration has given 
on the 18 factors, 8 with some satisfactory progress, 8 with 
non-satisfactory progress, and 2 that haven't been pursued long 
enough to be given a grade. And we know that everyone, 
including the insurgents and the terrorists, as well as this 
Nation and our allies, are looking forward to the September 15 
report. And so I think it is absolutely appropriate that you 
folks appear before us and give us your take on how things are 
going in the theater.
    So especially with respect to the operation that is--this 
Operation Phantom Thunder, which is the name given the surge 
which has now been in place at full strength for some 33 days. 
So we are looking forward to your comments on this.
    One thing that I am particularly interested in is--and in 
my personal view is more important than the political 
accomplishments of the Iraqi Government--is the standup of the 
Iraqi military. So I would particularly like to get your 
thoughts on the state of equipage and training, and I think, 
most importantly, the military operational experience of the 
Iraqi Army. And the last report we had was that there are 121--
or 129 battalions existent, that many of them now have some 
fairly--have been in some fairly contentious zones for extended 
deployments and have considerable amount of combat experience. 
Others have been in more benign areas and still don't have a 
great deal of combat experience.
    But your thoughts on that, on how the rotation is going in 
the Baghdad region particularly, but also Anbar and in the 
Sunni Triangle. You may recall that one thing that a number of 
us had felt was important was rotating Iraqi battalions from 
some of the more benign areas into the contentious zones, 
getting battlefield experience under their belts and providing 
at the same time some relief for the units that have been 
operating on an extended basis in those battle zones. So if you 
could give us your thoughts on that, particularly--and with 
respect to what combat missions the Iraqi forces have been able 
to accept the lead in and what others you think they are now 
primed and ready to take the lead in, and what steps we can 
take and the other Coalition partners can take to encourage 
them to take on greater combat roles.
    Understanding the Iraqis are an independent nation, they 
take our recommendations for their deployment of troops as just 
that--as recommendations. And particularly I would like to have 
your thoughts on what other actions we can take to ensure that 
when we leave Iraq, we leave it with an Iraqi military in place 
that has a good deal of battlefield experience under its belt 
when the United States hands this security burden off to them.
    So thank you very much for being with us today. And, Mr. 
Chairman, this is absolutely the most important issue before 
the American people right now and before us. So I look forward 
to the hearing. Thank you.
    The Chairman. Thank you, Mr. Hunter.
    Dr. Perry, why don't you be the lead-off batter?
    Dr. Perry. Thank you very much, Mr. Chairman.
    The Chairman. We understand that you just got in, and we 
appreciate your extra efforts in being with us this morning. 
Dr. Perry.

  STATEMENT OF DR. WILLIAM J. PERRY, CO-DIRECTOR, PREVENTIVE 
DEFENSE PROJECT, CENTER FOR INTERNATIONAL SECURITY COOPERATION, 
                      STANFORD UNIVERSITY

    Dr. Perry. Thank you. I would like to submit my written 
testimony for the record.
    The Chairman. Without objection. Thank you.
    Dr. Perry. And I would give you some highlights of that in 
my oral statement.
    Last December the Iraq Study Group (ISG), a bipartisan 
group commissioned by the Congress, reported that the situation 
in Iraq is grave and deteriorating. They recommended a new 
strategy that entailed a decreased role for the U.S. military 
and a dramatically increased role for political and diplomatic 
engagement. In effect, they were recommending a surge in 
diplomacy.
    In January, President Bush rejected these recommendations 
and announced, instead, a surge in American military forces, 
with no apparent change in diplomacy. Since the President 
announced his surge strategy, our forces in Iraq have gradually 
been increased, and the full complement of about 25,000 
additional troops was reached late in June. The bulk of these 
additional troops were sent initially to Baghdad. But as 
violence increased in other districts, some of them have been 
moved to troubled districts.
    To this date, the overall level of violence in Iraq and the 
casualties suffered by American troops has not gone down. 
Generally, whenever American troops are deployed in a district, 
the violence decreases in that district but increases 
elsewhere. One positive exception, however, is the Anbar 
Province where violence has decreased throughout the province. 
However, the decrease in violence in Anbar does not seem to be 
directly related to the surge.
    When the Iraq Study Group was in Iraq last September, 
General Chiarelli reported that the Sunni tribes in Anbar were 
beginning to cooperate with American forces in fighting the al 
Qaeda units in that district. We reported that favorable trend 
in the ISG report and recommended that this political 
development should be exploited to the maximum extent possible. 
It is encouraging to see that happening now.
    This development demonstrates how profoundly political 
combinations can affect military operations. Indeed, it is a 
clear indication that any chance of success in Iraq depends not 
on a military surge, but a political and diplomatic surge. In 
my testimony today, I will explain why I believe the ISG 
proposal better serves the interests of the United States than 
the current military surge. But first I will briefly look back 
to consider how the disastrous situation in Iraq arose.
    The Administration invaded Iraq because of the alleged 
imminent dangers to the United States from Iraq's weapons of 
mass destruction programs and their alleged connection to al 
Qaeda, neither of which turned out to be correct. They also 
cited their goal of bringing stability to the Mideast by 
creating a democratic government in Iraq. But the task of 
imposing a democratic government in Iraq turned out to be 
substantially more difficult than the Administration had 
imagined. Indeed, we may never know whether it was even 
possible, since the Administration's attempts to do so were 
burdened with serious strategic errors.
    In particular, four errors were the most consequential. The 
Administration failed to get support from regional powers and 
from key allies. They did not send in enough troops to maintain 
security after the Iraqi army was defeated. They disbanded the 
Iraqi army, police, and civil servants a few weeks after the 
Iraqi army was defeated, and they pushed the Iraqi Provisional 
Government to establish a constitution and hold elections, but 
in a faulty process that did not adequately protect minority 
rights, thus setting the stage for a bloody power struggle 
between Shias and Sunnis.
    The cumulative effect of all these strategic errors is a 
disastrous security situation in Iraq which continues to 
deteriorate. The media reports every day how many American 
troops have been killed. But I want to point out an even 
greater tragedy that does not get as much attention. Since the 
war began, almost 30,000 U.S. military personnel have been 
killed, maimed, or wounded. The media also reports on the 
statistics of Iraqis killed in the sectarian violence. But I 
want to point out that well over a million Iraqis already have 
left the country, including most Iraqi professionals on whom 
the country's rebuilding depends.
    As grim as this situation is, it could become even worse 
when U.S. soldiers leave, as the Administration has stated. But 
in the absence of political reconciliation, that could be true 
whether we leave a year from now or whether we leave five years 
from now. I want to repeat that. In the absence of political 
reconciliation, the increase in violence could be true whether 
we leave a year from now or five years from now.
    In the face of this growing disaster, the Congress 
commissioned an independent bipartisan study, charged to reach 
consensus on the way forward in Iraq. We met two or three days 
each month from March to August of last year, being briefed by 
military and political experts. A very important part of our 
fact-finding was consulting with the Iraqi Government, so we 
went to Baghdad in September and spent four days meeting with 
all of the top officials of the Iraqi Government as well as our 
military commanders in Iraq. After we returned from Iraq, we 
spent six intensive days trying to reach a consensus. This 
process was very difficult, and it is a tribute to our 
cochairman that we were able to succeed.
    The ISG report was released to the public on 6 December, 
and we recommended the following changes:
    Shift the mission of U.S. troops from combat patrolling to 
building up the proficiency and professionalism of the Iraqi 
Army, including embedding some U.S. soldiers so they could 
provide role models and on-the-job training for Iraqi soldiers.
    Begin pulling out U.S. combat brigades with a goal of 
having them all out by the first quarter of 2008, except--
except for a strong reaction force needed for force protection 
and for the fight against al Qaeda in Iraq.
    Continue for the indefinite future the support of Iraqi 
forces with intelligence, logistics, and air support.
    Provide both positive and negative incentives for the Iraqi 
Government to accelerate their reconciliation process and oil 
revenue-sharing so the Sunnis have a stake in a stable Iraq.
    And finally, mount an intensive diplomatic effort to 
persuade friendly regional powers to assist economically, 
politically, and with training, and to put pressure on 
unfriendly regional powers to stop arming militias and 
fomenting violence.
    I would point out to you that this is not a defeatist 
strategy, but one that recognizes the importance of stabilizing 
Iraq, and proposes that change in strategy that recognizes the 
reality that for four years our strategy has not achieved that 
stability in spite of the heroic efforts of our troops.
    If the recommendations to the ISG would be followed, many 
of our combat brigades would be out of Iraq by the first 
quarter of next year. As our Army combat brigades and Marine 
units return to their bases in the United States, the Defense 
Department will have a huge budget and management problem in 
restoring them to full combat readiness. This problem is of 
special concern to this committee because of the constitutional 
responsibility of the Congress in constituting and equipping 
our Armed Forces.
    The Army, all of whose active brigades with high readiness 
levels at the beginning of the war, presently has no active 
brigades not already deployed, that readiness level needed to 
meet future contingencies, and low readiness levels invite such 
contingencies. Indeed, our security may already have suffered 
because of the perception of Iran and North Korea that our 
forces are tied down in Iraq.
    The Congress also needs to consider the role of the 
National Guard, since the compact with these citizen-soldiers 
has been shattered by extended deployments that have caused 
many of them to lose their jobs, or even their families.
    In sum, I believe that the President's diplomatic strategy 
is too timid and his military strategy is too little and too 
late to effect the lasting and profound changes needed. His 
strategy is not likely to succeed because it is tactical, not 
strategic; because it does not entail real conditionality for 
the Iraqi Government; and because it would only deepen the 
divide in this country.
    The ISG proposal has a better chance because it recognizes 
that the key actions needed in Iraq to effect lasting results 
must be taken by the Iraqi Government and the Iraqi Army and 
because it provides the support and the incentives for those 
actions.
    Most importantly, the recommendations of the bipartisan 
Iraq Study Group provide an opportunity for Americans to come 
together again as one Nation indivisible.
    I thank you, Mr. Chairman.
    The Chairman. Thank you so much, Dr. Perry. Again, we 
appreciate your effort in being with us this morning.
    [The prepared statement of Dr. Perry found in the Appendix 
on page 66.]
    The Chairman. Dr. Mathews, Jessica Mathews, thank you for 
being with us also.

   STATEMENT OF DR. JESSICA T. MATHEWS, PRESIDENT, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Mathews. Thank you, Mr. Chairman. It is a great 
pleasure to be here, Mr. Hunter.
    We are sitting in front of the Armed Services Committee, 
but what I have to say to you today is mostly about politics. 
After four years, it is necessary for us to look behind the 
tactics, the things that we know the most about, and to correct 
the fundamental mistake that has characterized this war from 
the beginning, which is that U.S. strategy has had more to do 
with the political needs and interests and rhythms in 
Washington than it has had to do with realities on the ground 
in Iraq. It is time for us to examine whether the underlying 
strategy is sound. And I would like to offer some thoughts on 
that.
    My first point is that the premise of the current strategy, 
the so-called surge, is that a political solution would follow 
if the violence could just be reduced. In my judgment, that is 
false. What is underway in Iraq today is the natural and 
usually inevitable struggle for power that follows a political 
vacuum. The American presence is actually prolonging and 
delaying that struggle.
    Our use of the word ``reconciliation'' too is a huge 
distortion to ourselves of what needs to happen. ``Reconcile'' 
means to restore friendship and harmony, and that is not what 
is needed on the ground. The assumption that political 
reconciliation, that movement toward a political solution was 
moving forward until the attack on the Samara mosque is not 
supported by the evidence. And what we have to remember is that 
we are looking at a struggle for political power within 
sectarian groups as well as between them. I will come back to 
why this is so important.
    A political power-sharing agreement is going to eventually 
emerge from Iraq but likely only after the various parties have 
exhausted themselves, have tested each other's strengths, and 
have convinced themselves that they can get at least as much at 
the negotiating table that they can in the streets. This is not 
going to happen by September or by March of 2008. It is 
unlikely to happen in the next five years. Historical 
experience with civil wars, once they get going, they take a 
long time. Those of the last--the postwar period since 1945 
have lasted ten years on average, with more than half--with 
half of them running more than seven years. So let's not expect 
a quick outcome from this.
    To believe that the present strategy will succeed, one has 
to make three heroic assumptions.
    One is that, together with Iraqi Security Forces, we have 
enough force on the ground to contain a long-term guerrilla 
violence that springs from many directions.
    Second, that a combination of political and military 
assistance and coercion can impose a kind of artificial peace 
that would leap over the usual phase of political sorting out 
and struggle.
    And third, that we can maintain that peace for long enough 
that people will put aside their own natural fears and hopes, 
and believe that the present distribution of power represents a 
stable and inevitable future. If we were willing to stay for a 
decade or more, I think that might be true. But few people 
believe that we are prepared to do that. And even then, it 
would be an uncertain bet, because people hold political dreams 
and desires for revenge for far longer than that. And the 
Iraqis know that they live there and we don't, and that someday 
we will be gone and they will remain. And many of them would 
plan that way, even if they believed that we would maintain our 
present commitment for many years.
    So, based on the experience elsewhere and a three-plus-year 
test on the ground, I think it is unlikely that more of the 
same will produce a united Iraq, at peace with itself. It is a 
bitter but, I think, a sounder and wiser conclusion that the 
American presence and strategy in Iraq is, as I said, 
prolonging and delaying a struggle for power that will 
ultimately resume when we depart.
    Second point is that while we have had many--countless 
changes in tactics, we have been pursuing the same political 
goal in Iraq since 2004, and that is a united government of 
Sunnis, Shia, and Kurds working together. We have made no 
significant--no real progress toward that in this time.
    And the present description of the needed next steps as 
mundane and achievable benchmarks if only the Iraqi Government 
would work a little harder and not take a summer vacation is a 
form of dangerous self-deception. The reason why we have made 
so little progress is because these needed steps are hugely 
difficult and important ones, in which every Iraqi faces 
enormous personal potential gains and losses. They would be 
hardly achievable in the best of conditions, and these are the 
worst of conditions. Why worst? We know that four million 
Iraqis are either refugees out of the country, internally 
displaced, or dead. In U.S. per capita terms, that is 50 
million people.
    Think for a few minutes about what that would be like. 
Could we under such conditions come together as a Nation, bury 
past and present wrongs, and under foreign occupation and 
direction make painful and scary political accommodations, 
amend our Constitution and reallocate wealth? The question 
obviously answers itself, and yet we continue to pretend that 
the Iraqis can.
    Third, we are debating this problem almost entirely in 
military terms, which distorts the options available to us. 
Secretary Perry has pointed this out. A change in political 
strategy in Iraq and a shift in our political attention and 
economic and military priorities across the region redefines 
the possibilities. The analysis has to recognize, which 
generally it does not in Washington today, that a significant 
change in U.S. policy would change what others are willing to 
do.
    I believe that the Iraq Study Group's call for a 
multinational regional effort and diplomatic offensive is a 
step in the right direction, but it still presumes that the 
government--that the current Government of Iraq would represent 
that country and, therefore, that the current U.S. political 
strategy would continue.
    A better approach, a more difficult one but I think a 
better one, would be one that more resembles the bond process 
that successfully laid the basis for political transition in 
Afghanistan. In that case, Iraq would be represented by all its 
major parties. The key foreign governments would participate 
and support their various clients. This would be lengthy and 
chaotic, I recognize, a much higher political risk than the 
U.S. has heretofore been willing to undertake. But it holds at 
least the possibility that broad representation and debate 
among Iraqis heretofore short-circuited by U.S. policy, might 
produce a viable political outcome with less continuing 
destabilization.
    In this plan, a necessary ingredient would be an active 
role played by Iran's more immediate neighbors and that would 
depend on the United States' intent to begin a military 
withdrawal. The process should be proceeded by intensive 
bilateral consultations as to the best format, likely under 
U.N. auspices. And while making its direction absolutely plain, 
the U.S. Government, in my view, should not set a time line for 
the end of its withdrawal, or specify a predetermined number of 
residual troops. Both of those should be determined by the 
political outcome.
    We might be asked to stay in Iraq in a substantial way. We 
might not. A key point here is that its success would depend on 
a shift of the political energies of the United States--and 
some fraction of the enormous economic cost that is now 
consumed by Iraq, as you know, at a rate of $10 billion a 
month--to other conflicts and other theaters in this region 
that hold inherently greater long-term national security 
threats to the U.S. than does Iraq. Among these are Iran; 
Afghanistan, because of the Taliban and al Qaeda presence and 
its links to Pakistan; Pakistan itself, which is an immense 
threat because of these two, and its nuclear reference and its 
instability; and the Israeli Palestinian dispute; and, I would 
say, the growing crisis in Iran.
    One of the Iraq war's greatest long-term costs, I think the 
Chairman was suggesting this in his opening remarks, has been 
and will be the attention it has diverted from issues of 
greater long-term inherent importance to the United States.
    Next I want to briefly point out that assertions are being 
made about what would happen if we left Iraq, for which there 
is little or no evidence, and significant evidence to the 
contrary. Because the choice we face now is among all bad 
options, it is easy to make a case against any one of them. And 
while the uncertainties are immense, it is therefore imperative 
to examine these claims with as much care and knowledge as we 
can command, and at least to set aside those fears for which 
there is little evidence.
    It is asserted by many in the Administration and outside it 
that the violence in Iraq would spread across the region if the 
U.S. were to leave. Why? Iraqis are fighting among themselves 
over power. There is no reason why they would travel abroad to 
do so.
    Moreover, there is a history that argues strongly in the 
opposite direction, that civil wars in this region suck others 
in, rather than spread across borders. Algeria, Afghanistan, 
and even Lebanon, which sucked in direct troop deployments by 
Syria and Israel, are among the civil wars that did not spread. 
The case for a spreading war has not been made.
    It is likely, however, that an American departure would 
result in the war sucking others in more deeply than they are 
today. This is most likely, however, through financial and arms 
support and proxy fighters rather than troops.
    Iran's neighbors are well aware of the dangers of greater 
involvement, and neither of the two key players, Saudi Arabia 
and Iran, wants a direct confrontation. They and other 
neighbors are deeply aware of the risks of a sharper divide 
between Sunni and Shia countries as evidenced by the sound 
rejection of recent American efforts to organize a coalition of 
Sunni states against Iran.
    Another frequent claim is that an American exit would be a 
tremendous psychological victory for radical Islamists. This 
echoes the fear of the dominoes that didn't fall after Vietnam. 
In this case, an American exit from Iraq, not the region, would 
be a cause for celebration among some terrorists and perhaps a 
temporary source of strength.
    But it is at least equally true that the American 
occupation of Iraq--I use that word because that is how it is 
seen in the region--is jihadists' principal recruiting tool. 
Who is to say, then, that an American departure would be, on 
balance, a shot in the arm or a significant mid- and long-term 
loss?
    Let me briefly make one final point which I think is 
directly within the jurisdiction of this committee, and that is 
that I believe it is urgent for Congress to address and end the 
dangerous charade that has been underway between Congress and 
the Administration regarding the question of whether the U.S. 
is currently planning a permanent military presence in Iraq. 
Congress has passed numerous provisions prohibiting the use of 
its funds, of allocated appropriated funds, for building a 
permanent presence; in one case, by a Senate vote of 100-0. 
Initially, the Administration strongly opposed these 
provisions, but afterwards allowed them to pass, presumably on 
the grounds that the language is meaningless because no one can 
say that anything is going to be permanent.
    Meanwhile, the U.S. has continued to construct at enormous 
cost, an unknown cost, a massive self-contained embassy, as we 
know, and military bases whose facilities, military facilities 
and amenities and costs, could only be justified by a very 
long-term planned use. The major bases are designed to support 
force protection across the region and in North Africa.
    After years of evasions and denials, late in May the White 
House and the Pentagon finally revealed what had been obvious 
on the ground all along, in my judgment. Defense Secretary 
Gates remarked that the U.S. was seeking, quote, a long and 
enduring presence in Iraq, for which the model was Korea and 
Japan. U.S. forces have been in both of those countries for 
more than half of a century. His comments did not receive 
anywhere near the attention they deserve.
    What is the Administration thinking regarding a long-term 
U.S. military presence in Iraq? How big a presence? And for 
what purpose? Is there a settled policy? Is there a document of 
any kind? Has it ever been debated at senior levels? Or did the 
planning and building begin, as one general has said, by 
engineers who wanted to stay ahead of the policy curve and 
continued on auto-pilot ever since? This issue is of immense 
political consequence to the United States.
    Repeated polls show the Iraqis strongly oppose the bases. 
Across the Middle East, the enormous American footprint 
supports those who believe that the U.S. invaded Iraq in order 
to control the country and its oil resources and establish 
itself as a permanent presence in the region. Congress needs to 
end the Kabuki dance about spending and call the question on 
policy. What are the Administration's plans and thinking? And 
are they wise?
    In my view, any serious attention to political and social 
realities in Iraq and to opinion across the region and globally 
would lead one quickly to the conclusion that major U.S. 
military facilities in the Middle East should be located 
outside that country.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlelady.
    [The prepared statement of Dr. Mathews can be found in the 
Appendix on page 55.]
    The Chairman. I welcome our friend back to this Armed 
Services Committee, Dr. Frederick Kagan. The floor is yours, 
sir.

STATEMENT OF DR. FREDERICK W. KAGAN, RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Dr. Kagan. Mr. Chairman, honorable members, it is a 
pleasure to be in front of you again, speaking on this very 
important topic. I note that, as usual, I appear to be in the 
minority among the witnesses. I have gotten pretty comfortable 
with that role. I have been in the minority throughout this 
discussion, sometimes very close to being a minority of one, 
because, although I supported the initial invasion, I have been 
a pretty staunch critic of the way the Bush Administration has 
pursued the war from, honestly, even before the invasion began 
until January of this year. And if you want to think about what 
an uncomfortable position it is, support a war and then oppose 
the way the Administration fights it.
    I would like to take up one point that has been mentioned 
here--and it has been mentioned on a few occasions--that I 
think requires a correction. The United States is not an 
occupying force in Iraq, and I know that Dr. Mathews did not 
indicate that she thinks that it is, simply that people say 
that it is.
    I have heard a number of prominent leaders in Congress 
describe our presence there as an occupation, and I think it is 
very dangerous for us to use this misleading term. The United 
States is in Iraq today pursuant to U.N. Security Council 
resolutions and at the request of the Iraqi Government. That is 
a very different thing from being an occupying power. And it 
raises the question of how we are interacting with our Iraqi 
ally, because the Government of Iraq right now is an ally, and 
for all of our frustrations with it, it is one of the best 
allies on the war on terror that we have.
    If you measure the quality of alliance by the determination 
to fight our number one enemy, al Qaeda, Iraqi troops take 
casualties at a rate of about three to one to ours, many of 
them in the fight against al Qaeda. And Iraq has taken far more 
casualties in that fight, I believe, than any other country in 
the world.
    Let's step back for a minute and think again about how we 
got into the current situation. I don't want to revisit the 
question of whether we should have fought the war or not. I 
think we are well beyond the point where that is a discussion 
that is of significance. But I would say that from the end of 
2003 until early 2006, we faced a consistent and coherent 
challenge in Iraq, and that challenge was the Sunni Arab 
insurgency based primarily in Anbar Province and driven 
primarily by the refusal of the Sunni Arabs in Iraq to accept 
the subordinate position that any sort of democratic state in 
Iraq would consign them to.
    We had a great many discussions of what the best way would 
be of dealing with this insurgency. In my view, the 
Administration chose an inadequate strategy that did not focus 
on suppressing the insurgency, but instead relied on an 
emphasis of training Iraqi forces to do it themselves, 
something which I always feared would lead to greater sectarian 
violence and also an ineffective result.
    At the same time, starting in early 2004, the organization 
al Qaeda in Iraq, established by Abu Musab al-Zarqawi, aimed to 
establish--aimed to bring into being in Iraq a full-scale 
sectarian conflict. That was his stated goal. He desired to do 
that for a number of reasons which he made clear in a series of 
publications. For one thing, al Qaeda is a anti-Shia 
organization, at least in the form in which it established 
itself in Iraq, and Zarqawi regarded it as an absolute good to 
kill Shia. But in addition, he also wished to spur the 
mobilization of a Shia majority in Iraq and, to that end, he 
desired to go into the Shia community to launch attacks on the 
Sunni community, so that community would be more heavily 
mobilized.
    In the face of this challenge, we did not respond 
adequately, in my view, and we allowed too much scope for al 
Qaeda in Iraq to continue its activities, attempting to draw 
the country toward sectarian conflict. Astonishingly, despite 
determined efforts by Zarqawi and al Qaeda in Iraq from 2004 
through early 2006, the Shia community largely responded with 
restraint. And the primary security problem that we faced in 
Iraq in that period stemmed from the Sunni Arab insurgency and 
not from sectarian violence.
    The destruction of the Golden Dome of the Samara Mosque in 
February 2006 by al Qaeda changed that equation, and it led 
finally to very large-scale, widespread, reprisal attacks by 
Shia against Sunni Arabs and the beginning of a tit-for-tat 
cycle of escalation.
    In response to this change in the situation, unfortunately, 
Administration strategy did not change very dramatically. We 
continued to focus on putting Iraqis in the lead. We continued 
to focus on trying to maintain a small footprint in Iraq. We 
continued to focus on trying to maintain a low visibility 
presence in Iraq.
    As a result of this policy from 2003 through early 2007, 
although the number of U.S. combat brigades in Iraq has 
fluctuated from about 15 to about 20 or 21 at any given moment 
prior to 2007, all but two or three of those would be based on 
forward operating bases (FOBs) and conducting mounting patrols 
through areas, but not maintaining widespread or permanent 
presence in neighborhoods for which they had the responsibility 
to help establish security.
    I want to emphasize that throughout this period, there 
almost always were two or three brigades that were engaged in 
such operations, but they were generally unsupported by 
operations in their vicinity. They generally had, of course, 
inadequate support from Iraqi Security Forces, not yet mature 
enough either to engage in the struggle or not yet numerous 
enough to do so on a wide scale. And these operations did not 
form part of any coherent operational or strategic approach to 
the conflict. As a result, sectarian violence spiraled out of 
control.
    With a few exceptions, each month in 2006 was worse than 
the last. And by the end of 2006 it seemed apparent to all, 
including me, that we were on the path to defeat. In January 
2007, the President announced a new strategy, and it is a 
strategy, it is not simply a change in tactics. It lays out a 
clear strategic objective, a path going there. It is a clear 
military strategy. It is perfectly appropriate to question it. 
You can disagree with it, you can disagree with its premises, 
but it is a strategy. And the assumption is indeed that 
political progress in Iraq will not be possible or would not 
have been possible at the level of violence we saw prevailing 
in the country at the end of 2006. And furthermore, that the 
Iraqi Security Forces by themselves were unlikely to be able to 
bring the level of violence down to a point at which normal 
political process would be adequate without significant 
assistance.
    As a result, President Bush announced a new strategy whose 
military component focused heavily on establishing security in 
the core areas of Iraq that were most violent. And to that end, 
he sent additional forces into the country. I want to make the 
point people frequently focus on this number of 20,000 troops 
and how can 20,000 troops make a difference. And it is just 
five brigades and so forth. But it is not just a question of 
what those 20,000 additional troops were doing. It is also a 
question of what the other brigades in the country were doing 
as well, what the other combat troops were doing. Because even 
as the new brigades started arriving at the rate of one a month 
in January, the commanders in the field began to take all of 
the units that had been on FOBs and push them into the 
neighborhoods pursuing a fundamentally different approach.
    So it is not just a question of another 20,000 troops. It 
was a question of what all of the U.S. combat troops in Iraq 
were doing, whereas in the past only a handful at a time in any 
one given place would be undertaken to establish security. Now, 
almost all of the U.S. security forces in Iraq were seeking to 
establish security.
    Neither is it the case that the new troops were initially 
earmarked to Baghdad and subsequently sent elsewhere as a 
result of spreading violence. From the outset, Generals 
Petraeus and Odierno were explicit that they thought it was not 
going to be possible to secure Baghdad without eliminating 
terrorist sanctuaries in what they called the ``Baghdad 
belts,'' the areas north and south to the city, in many of 
which we have had no combat presence for many years, and that 
have become very serious terrorist sanctuaries.
    As a result, by design, as the new forces flowed in, of 
five Army brigades that went in, two brigade headquarters went 
into Baghdad, three brigade headquarters went into the belts. 
Of the Marine forces that went in, all of them were directed 
outside of Baghdad, and that was by design. Forces did move 
around some outside of Baghdad in response to changing security 
situations. But the plan to attempt to control both the belts 
and Baghdad was the plan from the outset. And it is, in my 
view, from a military perspective a sound plan.
    I will emphasize very briefly that it is a plan that is 
very different from anything that we have tried in the past. In 
the previous period as we tried to establish security in one 
part of the country or another at a time, we did indeed allow 
the enemy to establish safe havens in parts of the country 
where we were not. The current operation is attacking almost 
all of the safe havens that al Qaeda has established for itself 
in Iraq at the same time, from Fallujah through Lake Tharthar, 
to the southern belt, through Yusufiyah, Mahmudiyah and now 
even into Arab Jabour and Salman Pak, which had been absolutely 
no-go terrain for us, held by terrorists for years.
    Around into the north in Diyala, we are finally clearing 
Baquba, and we are moving around to the north of the city, 
clearing areas around Taji and Tarmyia which have also been 
insurgent strongholds.
    If you look at Iraq, Iraq is not a limitless place. And 
when you speak about the possibility of al Qaeda displacing 
away from this operation, there are a limited number of options 
that they have. They can move into Kirkuk and attempt to 
inflame the situation there, as they have done, although I 
would note that the recent attacks that we have seen in Kirkuk 
are actually a continuation of what has been a steady drum beat 
of periodic attacks in Kirkuk that al Qaeda has been carrying 
out at least since the beginning of the year.
    They can try to move into Ninawa Province, of which Mosul 
is the capital, and inflame sectarian and ethnic tension there. 
They have made some efforts to do that. We have been very 
aggressive in response with Special Operations, and the Iraqi 
Security Forces in that region have been very effective.
    Outside of those areas, it is very difficult for al Qaeda 
to find any bases. They are not going to be moving into the 
south, into Shia land, where there is no support and indeed 
active hostility to them, and they are not going to find very 
good safe havens in Kyrgyzstan either. So, in fact, the 
operations that we are currently conducting severely limit the 
areas al Qaeda can try to move into and push them 
fundamentally, with the exception of Mosul, into areas that are 
of far less strategic importance than the area we are currently 
engaged in securing.
    Now, I do believe it would be necessary to conduct follow-
on operations to clear those areas out, but this is not just a 
question of pushing them around from one region to another.
    At the same time as the surge strategy was being debated, 
as Dr. Perry mentioned, we were presented with an opportunity. 
And it was an opportunity that few had foreseen. And the 
opportunity was that the Sunni sheiks in Anbar Province were 
turning against al Qaeda. That was not something that was of 
our doing primarily. It was something that resulted from al 
Qaeda mistakes. But they are mistakes that are inherent in the 
nature of that organization, which in fact pursues a version of 
Islam, if you want to be generous and call it that, that is 
loathsome to most Iraqis and indeed to most Muslims, and that 
has very little popular support in the Muslim world. And the 
evidence is just about anywhere al Qaeda establishes itself and 
immediately attempts to impose its version of Islamic law, the 
locals begin to resist, and al Qaeda engages in a cycle of 
violence with them. It did that in Anbar Province, killed a 
popular sheik, committed a number of other atrocities, and the 
people of Anbar, particularly the leadership, started to turn 
against al Qaeda.
    That process was facilitated by the skillful operations by 
U.S. military forces in the province, the U.S. Army brigade, 
commanded by Colonel Sean McFarland in Ramadi. Marine forces 
throughout the province working to clear the area were very 
important in shaping this process. These were among the handful 
of units, as I mentioned, that had been attempting to establish 
security in their areas despite the larger strategy of not 
doing that, that prevailed in the theater, and they were 
successful.
    I will confess that as I read about this project in 2006, I 
was skeptical. I looked at the low force ratios that the 
Marines had in Ramadi, and I said they are never going to be 
able to do this. I was wrong. They were able to do it. And they 
were able to do it in large part because they were able to work 
synergistically with this movement of the Sunni sheiks against 
al Qaeda in the province. The surge has dramatically increased 
the speed with which this process has been moving forward. As 
some people put it, even when you are operating with Sunni 
tribes and many tribal systems, there is the desire among them 
to be friends with the strongest tribe. And we have established 
ourselves for the moment as the strongest tribe in al-Anbar, 
which is one of the reasons why the Sunni sheiks are 
comfortable working with us and allowing us to serve as a 
bridge between them and the Iraqi Government, and, most of all, 
seeking our assistance in fighting al Qaeda, which they now 
perceive as a deadly foe. This process has expanded beyond al-
Anbar.
    Similar awakening movements have developed in Salahaddin 
Province in the north of Baghdad, in Bago Province, which is a 
mixed province to the south where we have even had Shia tribal 
leaders come forward and say, hey, we want to do some of the 
stuff that the Sunnis are doing in al-Anbar. And it is 
happening in Diyala Province where we have had tribal 
agreements coming together, tribal cease-fires and tribes 
reaching out to us to work with us working against al Qaeda as 
well.
    So this is a process that has been spreading and 
accelerating over the last year, fueled, I believe, by the 
confidence that these leaders have that we will stand by them 
and help to ensure that they can prevail in the struggle 
against al Qaeda.
    It is a very important development. It is not one that I 
believe can continue in the absence of a strong military 
presence engaged in the sorts of operations that we are now 
pursuing.
    Let me also step back for a moment and point out that this 
shift in attitudes in Anbar and throughout the country is 
pivotal not only in Iraq but in the global war on terror. We 
have actually seen this process occur in Afghanistan as well. 
We have seen it occur in Somalia. The fact is that al Qaeda 
does not have very much of a brand that has much mass appeal in 
the Muslim world, but it is frequently the case, because they 
are such fanatical fighters and so determined, that unless an 
outside force is present to defeat and contain them militarily, 
they can terrorize local populations into supporting them 
against their will.
    I think that is a very important lesson for us to take away 
from this conflict as we think about pursuing the global war on 
terror in general and the counterterrorism fight in Iraq in 
particular.
    Responsible people in this city understand and say 
repeatedly that we cannot simply abandon Iraq and allow it to 
become an al Qaeda safe haven, and advocate leaving U.S. forces 
behind to engage in counterterrorism. I am not sure I would 
challenge them to describe exactly what sort of 
counterterrorism operations they have in mind if they don't 
look like what we are doing. The sectarian violence that we are 
seeing in Iraq right now resulted from the deliberate efforts 
of al Qaeda to create it for their own benefit, and they are 
benefiting every day. If we were to leave, they have made it 
clear that they will attempt to recreate the sectarian 
violence, which has been coming down steadily, get it up to 
previous levels and continue to benefit from it.
    I do not understand in this context how we can imagine that 
we could fight al Qaeda in Iraq without addressing the 
sectarian violence that is their primary tool for establishing 
themselves in the country.
    I would like to make one last point about the discussion of 
what the likely consequences of U.S. withdrawal from Iraq would 
be. I respectfully disagree with Dr. Mathews about the absence 
of historical evidence for the likelihood of difficulty there. 
I would refer the committee to the excellent report done at the 
Brookings Institute by Ken Pollack and Dan Byman called 
``Things Fall Apart'' that brings to bear significant evidence 
that would lead us to believe that the consequences will indeed 
be very dangerous. But I would like to caution the committee 
and everyone in this discussion for making the same mistake 
that the President is accused of having made--and I think with 
some justice before the Iraq war--of assuming that the post-
conflict scenario would be rosy, would be optimistic, would go 
the way we would want it to be. I think we can make just as 
large a mistake if we choose optimistic scenarios about the 
post-withdrawal situation that are questionable in the face of 
many, many reports, some very solidly based, about the 
possibility that the optimistic scenarios will not play out. I 
thank the committee for its attention.
    [The prepared statement of Dr. Kagan can be found in the 
Appendix on page 75.]
    The Chairman. I thank the gentleman for his comments. I am 
reserving my questions until a later moment. Mr. Hunter just 
informed me that he will reserve his comments until a later 
moment in this hearing.
    Mr. Saxton, you are called upon, please.
    Mr. Saxton. Well, Mr. Chairman, thank you for permitting me 
to be the lead questioner here. Let me just begin with this. As 
I sat and listened to the witnesses and, of course, most 
recently Dr. Kagan, it occurred to me that what we are really 
trying to do here is to figure out over time--you don't have to 
turn the clock on for me. That is all right. The lights aren't 
working.
    The Chairman. The lights aren't working. Why don't we start 
all over for him. Start over.
    We will start all over for you, and we will watch the clock 
here.
    Mr. Saxton. Mr. Chairman, as I was saying, thank you.
    It occurs to me what we are all trying to do regardless of 
our perspective on Iraq, what we are all trying to do is to 
figure out how to counter the threat caused by al Qaeda and 
extremist Islamic groups who wish us harm. And as I look at the 
history of this, there are efforts that have been made which I 
think have all been made in good faith.
    We first noticed perhaps--or at least this is my 
perspective--that al Qaeda--that extremist Islam was a factor 
to be dealt with during the 1980's, and we chose a course of 
action which was in concert with them because we had an enemy 
that we recognized as being a more--an enemy that we needed to 
deal with in a more direct fashion. Of course, that was the 
Soviet Union. So we supported the efforts of the Taliban. And I 
guess we could make a case today that maybe that wasn't the 
smartest thing to do.
    And then during the 1990's, we entered a new phase of 
engagement with extreme Islamist groups. During the 1990's, we 
had the attack on the Khobar Towers, we had the attack on the 
African embassies, we had the attack on the Cole and others, 
and our decision at that point was not to do anything to 
directly confront them. And I believe that today we could make 
the case that that was an error in judgment.
    And then, of course, we had the events of 2001 and a new 
period of engagement with Islamist terrorist groups, Islamist 
fundamentalist groups when we went to Afghanistan. And for a 
time Afghanistan seemed to be a successful engagement until, of 
course, the groups fled to the other side of the Pakistan-
Afghanistan border and set up shop all over again, and we found 
ourselves in that region of the world with newly constituted 
groups which today are said to be as strong as or perhaps even 
stronger than they were before 2001.
    And, of course, that brought us to Iraq, and as Dr. Kagan 
pointed out, our intentions were good. We thought we had to 
deal with Saddam Hussein, and we went there. And under the 
leadership of the Bush Administration and Don Rumsfeld, we 
decided that our policy would be a limited military one where 
we would seek to bring on board an Iraqi security force that we 
would be able to leave in charge. And once again we lived 
through an era--we worked through an era where we made 
mistakes.
    And so the question today is what should our future policy 
be? And I think I have heard two diametrically opposed sets of 
ideas about where we ought to go.
    Let me just ask Dr. Kagan this. Looking at the history of 
where we have been in this fight against fundamentalist 
extremist groups, what is your best guess as to what we ought 
to be doing and doing in the future and based on where we have 
been, Dr. Kagan.
    Dr. Kagan. I think we are pursuing the right approach in 
Iraq right now, and I think it is very important that we see it 
through to the end. I think we are making tremendous progress 
in defeating al Qaeda in Iraq in conjunction with the Iraqi 
people. And I think the historical examples that you have 
brought to bear are very telling.
    We made a tremendous mistake in the wake of the Soviet 
withdrawal from Afghanistan in deciding that Afghanistan was a 
far-off place of which we knew little and something we could 
afford to ignore. And as a result, we allowed the Taliban to 
seize power, and we allowed al Qaeda to metastasize there, and 
we found the problems subsequently coming home to roost.
    I believe if we let al Qaeda up off the mat in Iraq, we run 
the serious danger of having a serious development occur. The 
enemy in Afghanistan was very little threat to regions outside 
of the country while the Soviets were there. As soon as the 
Soviets withdrew and the situation collapsed, they became a 
global threat. I think we are very likely to face a similar 
situation in Iraq if we would leave precipitously. So I think 
it is very important that we stay and help the Iraqis finish 
off this very potent threat.
    The Chairman. I thank the gentlemen.
    The clock is now working, and we will call on Mr. Spratt.
    Mr. Spratt. Thank you all for your excellent and very 
provocative testimony.
    Dr. Perry, you have testified that when the Iraq Study 
Group went to Iraq and met with our commanding officers in the 
field there, all of them--Casey, Chiarelli and Abizaid--when 
put the question would three to five additional brigades help 
the situation decline the additional troops, would you 
elaborate further on why they indicated negatively that they 
did not need or seek additional American troops?
    Dr. Perry. Now, Mr. Spratt, my recollection of the 
discussion--first of all, I am completely clear that they said, 
no, this would not help. When we asked them why not, my 
recollection of the discussion was that they said that it would 
delay the Iraqi Government taking responsibility and taking the 
decisions that they needed to be making. They thought that a 
political reconciliation was necessary for success in Iraq, and 
that the Iraqi Government was not taking the necessary actions, 
and our sending in more troops would only delay their doing 
that. That was my best recollection of how they explained their 
view.
    Mr. Spratt. Did they indicate, or did anyone indicate, did 
you determine independently that additional Iraqi troops are 
necessary over and above the 135 battalions now being trained?
    Dr. Perry. They were continuing--as we were there, they 
were continuing to train additional Iraqi battalions, but their 
main conclusion was that the quality of the training needed to 
be improved. And that is why we were discussing with them the 
notion of embedding more American forces in the Iraqi 
battalions, for the purpose of increasing the professionalism 
and the capability of the Iraqi forces by working with American 
non-commissioned officers (NCOs) who could serve as role models 
and who could help train them, on-the-job training so to speak.
    The training that the Iraqi forces had before they went 
into the field was basically the kind of training we give our 
troops in basic training, and we would not expect to send 
troops with just basic training out into combat missions 
without having experienced NCOs and officers working with them.
    Mr. Spratt. Dr. Kagan, you indicate that the first phase is 
finished with reasonably good results, and you look forward to 
a successful second phase. Do you think that can be 
accomplished with the existing Iraqi forces?
    Dr. Kagan. I do believe that the current operation is 
designed to work with the Iraqi forces that are available. Our 
commanders now have expressed every confidence that they can 
achieve their objectives with the forces that they have. I 
believe General Odierno said, I don't need more forces, I just 
need more time.
    And I would also note that we have changed the training of 
Iraqis force. Iraqi forces that deploy into Baghdad now first 
run through a training area in Nasiriyah to the east of 
Baghdad, which is designed to give them a much higher quality 
of training before we deploy them into the streets. And, of 
course, since last fall many more Iraqi forces have been 
engaged directly in combat and have received quite a lot of on-
the-job training. Reports from the people that I spoke to when 
I was in Iraq in May tell me that many Iraqi units are fighting 
extremely proficiently and professionally.
    Mr. Spratt. Dr. Mathews, you indicated that we are asking 
the wrong questions. One of the series of questions we try to 
impose, for lack of any kind of metric, any kind of yardstick 
by which to measure progress, were some benchmarks which were 
put into law recently, and now we are seeing the answers to 
those benchmarks. Were those benchmarks the wrong criteria? Do 
they go in the right direction? Some have suggested that we are 
being a bit too harsh, holding them to standards that are too 
tough in the midst of a civil war of this intensity.
    Dr. Mathews. Well, Mr. Chairman, as I tried to suggest--
excuse me, Mr. Spratt--the benchmarks--and I think the use of 
the word and particularly this list suggest--as I said, these 
are achievable. They are rather straightforward. In fact, we 
are asking, first of all, to amend the Constitution, which was 
only agreed to because we promised the Sunnis that it would be 
fixed to give them a better deal. And that was a somewhat 
unrealistic promise. It has encouraged them to fantasize about 
what they can get and to dig in their heels against further 
work with the government until they can. And there is no 
prospect that we are going to. Meetings do not mean progress, 
as any Member of Congress knows. The same thing is true on the 
oil deal.
    What we are talking about here are fundamental allocations 
of political power. And I believe that the Iraqis are not yet 
ready to make those choices themselves because they haven't yet 
tested each other's strength and will. And there are too many 
organized groups determined to do that. So I believe we are 
engaged in a rather elaborate exercise of self-delusion about 
the benchmarks.
    Mr. Spratt. Thank you.
    The Chairman. Mr. McHugh from New York.
    Mr. McHugh. Thank you, Mr. Chairman.
    Welcome to you all. I appreciate you being here.
    Dr. Kagan, we have heard, and I think understandably, that 
there is a deep concern that somehow American forces today are 
in the middle of a civil war, that we can extract ourselves 
from that civil war. And whether it is the recommendations of 
the Iraq Study Group group or the bill that the distinguished 
chairman had on the floor just last week focus in on al Qaeda. 
Do you think that is achievable? Are we in the middle of a 
civil war? And can you separate the two in this current 
environment?
    Dr. Kagan. In my view, any insurgency is definitionally a 
civil war, and I have always found this discussion to be a 
little bit problematic. If you mean are we in the midst of a 
full-scale civil war in which everyone is trying to kill 
everyone else, absolutely not. It is a very organized struggle 
in which a number--as Dr. Mathews pointed out--a number of 
hostile groups are competing with one another by attacking each 
other's populations. We have been in situations like this, in 
fact, continuously since about 1995 when we went into Bosnia, 
and we have demonstrated that we can be successful in such 
things. But I don't want to get into the comparisons between 
this and the Balkans.
    But the answer to your second question is unequivocally no. 
I can't imagine how we could possibly confront al Qaeda and 
Iraq without addressing the sectarian conflict that they are 
themselves stoking and attempting to benefit from. I don't 
understand and no one has ever explained to me what that kind 
of engagement, what that kind of counterterrorism campaign 
would look like.
    Mr. McHugh. Would you say that because your argument would 
be predicated on a central strategy of al Qaeda is to fulminate 
the sectarian violence that we would try to extract ourselves 
from?
    Dr. Kagan. Not only that, but that they benefit from that 
sectarian violence because they create sectarian violence, and 
then they use the resulting lawlessness to terrorize local 
people into supporting them. And they also then pose, 
ironically enough, as the defenders of the local people against 
the Shi'a attacks that follow.
    And the result of this is that it is a very different 
situation from what we saw in Afghanistan in the 1990's. These 
guys are not establishing large training bases in the desert 
away from the population. These guys are burrowing into 
villages, moving into homes, moving people out, you know, 
living among the population in the area that they control. You 
are not going to be able to get intelligence about these people 
unless the locals are confident that we are going to be 
available, that we are going to be around to protect them when 
they turn against al Qaeda. And this is what we have seen. As 
we moved into areas and announced that we are going to be there 
for a while, the locals start fingering the outsiders who are 
al Qaeda. Whether they are Iraqis or not, they tend to be 
outsiders in the local village. I simply don't see how we can 
continue to struggle against al Qaeda without engaging in this.
    Mr. McHugh. Thank you, sir.
    Dr. Perry, forgetting for the moment Dr. Kagan's comments, 
the Iraq Study Group spoke about and you commented about a 
strong reaction force, about a residual force. Again, the 
Chairman's bill last week spoke about residual forces to 
protect our embassy, the largest in the world when completed 
for us, to train Iraqi forces, to pressure and disrupt al 
Qaeda, to provide force protection. I assume we have to feed 
those troops. You have to provide logistic support, 
intelligence, air support. How many troops do you think we 
could leave behind safely and effectively? What size force 
would that take?
    Dr. Perry. I don't think I would be qualified to give you 
the size of that----
    Mr. McHugh. Doctor, you are the former Secretary of 
Defense, with all due respect.
    Dr. Perry. As the Secretary of Defense, I would have gone 
to the Joint Chiefs of Staff, now here is the mission we want--
--
    Mr. McHugh. That is fair, and I respect that. But the Iraq 
Study Group recommended this.
    If you made a recommendation, I presume you formulated some 
figure of some sort. What would that be?
    Dr. Perry. We did not formulate a figure. We discussed the 
figure. We discussed it with some of the military people. It 
would clearly lead to a reduction in force over what we now 
have, but it would still be--I think we said in the report it 
would still be a sizeable military force remaining in Iraq.
    Mr. McHugh. Okay. Dr. Kagan, do you have any idea what that 
force would take, what it would look like? We have about 
160,000 now. What would that force look like, forgetting if it 
would be successful or not?
    Dr. Kagan. Well, it depends. If the mission is as usually 
described, to support the Iraqi Security Forces and also to 
conduct counterterrorism operations in some form, there have 
been a number of proposals out there that suggest anywhere from 
60- to 100,000 troops would be required for that. I haven't yet 
done all of the math for that. I think the higher estimate of 
that is probably more accurate when you consider how heavily 
obligated we are to support the Iraqi Security Forces right now 
logistically.
    Mr. McHugh. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Thank you so much for your testimony this morning. I have 
asked this question before from our military leaders, and you 
mentioned this, Secretary Perry. When they disbanded the Iraqi 
Army, the police and the civil servants, I have asked them who 
made this decision. And the reason I asked this question is 
because we hope that this is not repeated again. Was this a 
military decision? Was this a civilian decision? I think it was 
a very, very big mistake to disband the military, the police, 
and the civil servants. And I have asked the military leaders 
and nobody seems to know where that decision came from.
    Do any three of you have any idea how they were able to 
arrive at this conclusion that it was for the interest of our 
troops and their people to disband the army, the police and the 
servants?
    Dr. Perry. I was not there at the time and do not know why 
or how that decision was made. I know when it was made, and it 
was made shortly after the general who was in charge of the 
divisional forces there was relieved and replaced by Mr. 
Bremer. And I believe it was Mr. Bremer that made the decision. 
And I do know that the general strongly opposed that decision 
and argued to Mr. Bremer against doing it.
    Mr. Ortiz. Ever make a decision like that without getting 
all the mice together, because I think that it was a very 
costly mistake that we made.
    Dr. Perry. That is my judgment also.
    Mr. Ortiz. You know, what is the impact on the United 
States military of continuing our involvement in Iraq? Are we 
in danger of breaking the United States Army through the high 
rate of deployment and repeated deployments? And one of the 
reasons I ask this question, I just had a call from my 
constituent, the family of a constituent, about five days ago. 
This individual had been deployed three times. He has been back 
less than six months, and he has been called again, and he is 
going to be activated to go back to Iraq for a fourth time. I 
think this is too much.
    Not only is this impacting on our reserves, on our National 
Guard, the soldiers are tired. And this is why--I was just 
wondering, I mean, are we in danger of breaking the United 
States Army through this high rate of deployment?
    Dr. Perry. I don't know whether I can answer that question 
in the sense you ask it. I would say, though, that I am very 
much concerned about the Army National Guard. I think they have 
been overextended. I think, in effect, we have broken the 
compact that we had with the guard. After this war is finally 
over, it will not be just a matter of rebuilding the guard. I 
think we need to reconsider from first principles what the 
mission of the guard would be and have a new compact with them 
that would be more appropriate for the future. And I think that 
would be a very important role for this committee to take on 
that job.
    Mr. Ortiz. I just wonder if anybody else from the witnesses 
that would like to respond to that same question since I have a 
little time left.
    Dr. Kagan. Well, I will.
    I am also very concerned, of course, about the strain that 
this war is placing on our military. I am also concerned about 
the consequences for our military of inflicting the first ever 
defeat on the all-volunteer force. This is not a force that is 
accustomed to losing wars, and I am very concerned about what 
the consequences of that will be.
    But I would like to echo Dr. Perry's comment that there is 
more to consider here than simply the strain of the current 
war. I began advocating for larger ground forces in 1997, and I 
have been consistently saying since then that the ground forces 
need to be larger. And I know that there has been support in 
this committee and on the Hill in general for expanding ground 
forces even as successive administrations have opposed doing 
that. I am happy to see the Bush Administration has now finally 
called for an increase in the ground forces, which I think is 
urgently required, even if you think we are going to be out of 
Iraq in the near future.
    If you look at the scale of the potential of future 
threats, it is simply unacceptable for us not to be able to 
undertake an operation of this scale without imposing such 
strains on the ground forces. And I would hope that the 
committee will continue to work actively with this 
Administration and subsequent Administrations to, in fact, 
attempt to accelerate and expand the expansion of ground forces 
that this Administration has proposed.
    Mr. Ortiz. Thank you, Mr. Chairman.
    The Chairman. Mr. Jones, North Carolina.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Dr. Kagan, I want to--I agree with you. We can't go 
back, but we can learn from mistakes made by looking at the 
past. I want to read one statement to you, and I have a 
question for each one. This is an article written by Lieutenant 
General Greg Newbold, a man I have great respect for, gave up a 
star simply because he saw what was happening before we went 
into Iraq; an article written April 9, 2006, Time Magazine: 
From 2000 until 2002, I was a Marine Corps lieutenant general 
and Director of Operations for the Joint Chief of Staffs. After 
9/11, I was a witness and therefore a party to the actions that 
led us to the invasion of Iraq and unnecessary war.
    Inside the military family, I made no secret of my view 
that the zealots' rationale--the zealots' rationale for war 
made no sense. The reason I want to mention that--the zealots, 
the neocons. Are you a part of the neocon group that wanted to 
go into Iraq? Yes or no.
    Dr. Kagan. I supported the invasion of Iraq. I am not sure 
what exactly the neocon group is. Usually that is used as a 
pejorative term.
    Mr. Jones. Well, I would put Paul Wolfowitz, Douglas Feith, 
you know, the people--Rumsfeld included--that seemed not to 
care about the professionals whose intelligence was warning us 
what would happen. But that is history. I won't agree with 
that. This is the question: Before the war in Iraq, what was 
the size of al Qaeda in Iraq when Saddam was in power?
    Dr. Kagan. Congressman, I don't know for sure, but I assume 
that it was very small. That is what I understand.
    Mr. Jones. Okay. Dr. Perry, would you agree with Dr. 
Mathews that there was very little, if any, strength of al 
Qaeda in Iraq before the invasion?
    Dr. Perry. Yes.
    Dr. Mathews. I think we are confusing two different groups, 
al Qaeda in its global form with individuals in Iraq and the 
group al Qaeda in Iraq, or al Qaeda in Mesopotamia, which 
didn't exist.
    Mr. Jones. Okay. So the presence now, whether it is one 
group or the other group, is obviously growing inside of Iraq 
since now that we have this sectarian war, civil war. I mean, 
there is no question about that.
    Dr. Mathews. No question.
    Mr. Jones. Okay. Dr. Mathews, I think I understood you to 
say that there is no way to say what will happen when we and if 
we downsize the number of American troops in Iraq, whether 
there would be a civil war that will spread and grow throughout 
the nation, that all the countries will come in and try to add 
fuel to the fire of a civil war.
    Dr. Mathews. I would guess that it is very likely that 
other countries will get sucked in more deeply than they 
already are with more arms and more money and maybe more proxy 
fighters. I think it is very unlikely that the war will spread 
across the borders. Iraqis are principally fighting for power 
in Iraq. That is what 90 percent of the violence is about. Why 
would they go across the borders to do that? Also history tells 
us that this is not what happens with civil wars in this 
region. They suck others in rather than spread.
    Mr. Jones. Dr. Perry, as a former Secretary of the Navy--
and I appreciate your concern about the National Guard. We have 
had hearings on that. There is no question that the National 
Guard has done a magnificent job in supporting the effort in 
Afghanistan and Iraq, but primarily Iraq. And many of the 
Governors are very upset with the fact that there is so much 
presence of the National Guard.
    My time is about to run out. I have got a quick question. 
Would you think it would be--if a bill was put in by a Member 
of Congress to say that the guard would be significantly 
reduced over the next year and come back to the States so that 
they can help the States during hurricane seasons, floods and 
every other--do you see this would be a major hurt for the 
effort in Iraq?
    Dr. Perry. I would like to see two related changes made. 
First, agreeing with Dr. Kagan, I would like to see an increase 
in the size of the active duty ground forces, particularly the 
Army. And then second, if that were done, that would allow, I 
think, a restructuring of the mission of the guard to be 
primarily homeland defense.
    Mr. Jones. Thank you, Mr. Chairman. I think my time is up.
    The Chairman. Mr. Taylor. Mr. Taylor is not here.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here.
    Dr. Perry, in your end statement at the end you say, quote, 
in sum, I believe that the President's diplomatic strategy is 
too timid, his military strategy is too little and too late to 
effect the lasting and profound changes needed. His strategy is 
not likely to succeed because it is tactical, not strategic, 
because it does not entail real conditionality for the Iraqi 
Government, and because it will only deepen the divide in our 
country, end of quote.
    Last week at our Oversight Investigation Subcommittee, we 
had a great panel including General Wes Clark, who stated very 
strongly he thinks it is too early to give up militarily on 
what is going on in Iraq, but says the thing is going to fall 
apart, and there isn't any point in continuing unless there is 
a dramatic change in strategy.
    Dr. Mathews, in your statement you state we are--quote, we 
are debating this political problem almost entirely in military 
terms, which limits and distorts the available options. A 
change in political strategy in Iraq and a shift in political 
attention on economic and military priorities across the region 
redefines the possibilities. Analysis of options must 
recognize, and it generally does not today, that a significant 
change in U.S. policy will change what others are willing to 
do, end of quote.
    Last week when we had the vote in the House, I was one of 
the ten Democrats that voted against it. And one of the reasons 
I did is because it focused only on the military. It was purely 
a discussion about military options, and it had nothing about 
the strategy. I think one of the problems, Dr. Perry--I am 
going to address my question just to you if I might. I don't 
think that many of us have a clear understanding of what we are 
saying when we say strategy. Summarize for me. What do you 
think should be our strategy toward Iraq and the region?
    Dr. Perry. My best judgment of the appropriate strategy for 
Iraq was the strategy we laid out in the Iraq Study Group, but 
I think the important point, to follow up on the specific point 
that you made, is that the strategy should entail military, 
political, and diplomatic. It has to involve all three 
components for it to be a full-blown strategy.
    Dr. Snyder. Give me a one-sentence summary--and I realize 
that is unfair--one-sentence summary of what each of those 
components should be, do you think, toward that region in Iraq.
    Dr. Perry. The military strategy should be focused on 
building up the Iraqi Army, to make it fully professional and 
fully capable and continuing to fight al Qaeda in Iraq. The 
political strategies should be focused on trying to get a 
reconciliation between the Sunnis and the Shi'as in Iraq. And 
the diplomatic strategy should be focused on bringing the 
friendly countries in the region in on a positive supportive 
role, and helping--and providing the disincentives for Iran and 
Syria to continue to arm the militias and fulminate violence.
    Dr. Snyder. A couple of days ago, Dr. Philip Zelikow 
provided a written statement to the committee, and one of the 
things he said is this. And I am going to read from his 
statement. He says, quote, ``We should all be humble about 
predicting Iraq's political future. Don't scapegoat their 
leaders. Many of them are handling and balancing sets of 
personal and political concerns that are difficult for us to 
even comprehend. The bottom line, Iraq is still undergoing a 
full-bore political and social revolution; assume further 
change.'' And as I thought about that--Mr. Smith and I were 
talking about when I walked to work this morning, I didn't have 
to think about, you know, would our families be shot because we 
were serving in an elected position. I cannot comprehend what 
they must be going through.
    That statement seemed to be in contrast with what a lot of 
us, including myself, have said in our speeches, that somehow 
we need to put pressure on these people, implying that there is 
not enough pressure on them today. Are we scapegoating the 
Iraqi leaders? And are these benchmarks just clearly--if they 
were all met 100 percent, all 18 of them, would it get us--you 
know, would the lions and the lambs be laying down together in 
Iraq? And I would like to hear from all three of you. If you 
would start, Dr. Perry.
    Dr. Perry. And the benchmarks which the Iraq Study Group 
urged to be followed were benchmarks that were proposed by the 
Iraqi Government, not benchmarks which we made up, but 
benchmarks which the U.S. Government imposes on them.
    In terms of Dr. Zelikow's statement about the uncertainty 
in the political situation in Iraq, I agree with that, but I 
think the same statement can be made a year from now or five 
years from now.
    Dr. Snyder. Dr. Mathews.
    Dr. Mathews. I don't know about scapegoat, but I think the 
core of your comment is exactly what I was trying to say, which 
was this has nothing to do with being lazy or recalcitrant, but 
being asked to do a task that would easily defeat any 
conceivable effort in the United States, for example, under 
conditions where in our terms 50 million people--50 million are 
dead or displaced or outside the country. It also tells you a 
great deal about the training effort that every Iraqi officer 
who can do so has his family and his wife outside the country. 
It tells you a great deal about why we cannot get a better 
result and why the result is so incommensurate with the 
investment we made. We are asking something which I think most 
people who have really studied this know in their hearts is not 
an honest request of another government.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Dr. Perry, thank you for being with us today. And I know 
you have been with us a lot of times as a former Secretary of 
Defense.
    You mentioned in your testimony that you think we needed to 
have a surge in diplomacy rather than a surge in troops, and 
that the surge in diplomacy hasn't been undertaken by the 
Administration. Now, when you were Secretary of Defense, we had 
the--of course in 1993--or Under Secretary--we had a car bomb 
explode in the World Trade Center. We had something like 326 
separate attacks over that period of time, that 4 years from 
1993 to 1997. We had, of course, in 1996 the Khobar Towers 
attack which killed 19 American service people.
    What surge in diplomacy did you undertake at that time to 
blunt this--what appeared to be then a burgeoning campaign by 
extremists against American--the American people and in some 
cases American service personnel?
    Dr. Perry. Let me refer specifically to the Khobar Towers 
bombing, which is one I am very familiar with in some detail. 
Two different things we did in response to that. One of them 
was we worked extensively with the Saudi Government to prevent 
the action which that bombing was intended to cause, which was 
to cause the American troops to leave Saudi Arabia. We 
announced strongly that we were not going to let the bombing 
drive us out of Saudi Arabia. We worked with the Saudi 
Government to prepare an entirely new base for American troops 
located in the center of the desert which we could provide 
better force protection for. That was a major diplomatic thrust 
with the Saudi Government to get them to do that move.
    Second, I'd like to comment specifically----
    Mr. Hunter. Dr. Perry, I am talking about a diplomatic 
thrust.
    Dr. Perry. That was a major diplomatic thrust with the 
Saudi Government. They were not at all anxious to make the move 
we are talking about. In terms of the decision not to confront 
the people, we were prepared to confront them, to confront 
forcibly and with military action the perpetrators of that. At 
the time we thought that had been engineered by the Iranian 
Government, and we had a contingency plan prepared to have a 
retaliatory strike if that could be confirmed. As it turned 
out, neither the FBI nor the Saudi police were able to finally 
determine who did that, who actually perpetrated that bombing, 
so we were not able to. But I can assure you that we were quite 
prepared to do that.
    Mr. Hunter. Okay. So you were prepared, but you weren't 
able to ID the perpetrators. So you didn't----
    Dr. Perry. Exactly. As far as I know, they have not been 
identified to this date.
    Mr. Hunter. Now, you said you didn't think there was enough 
troops--that was in your preliminary statement--in Iraq. The 
figures that I am looking at here--and correct me if I am 
wrong. When you became the Under Secretary of Defense and later 
Secretary, we had 14 Army divisions. You then took that down to 
10 Army divisions. Do you think in retrospect that was a 
mistake?
    Dr. Perry. At the end of the Cold War, first the Bush 
Administration reduced the military by 25 percent.
    Mr. Hunter. We had 18 divisions.
    Dr. Perry. Twenty-five percent. And in the Clinton 
Administration, that was reduced another 8 percent, from 25 
percent to 33 percent.
    In retrospect, no. I think we should have maintained more 
Army divisions.
    Mr. Hunter. Let me ask Dr. Mathews.
    You talked about the need to engage diplomatically. What 
actions would you take with respect to the Iranians right now, 
with the Iranians in diplomatic engagement?
    Dr. Mathews. I think our best hope of conversation with 
Tehran that moves forward is about Iraq, because oddly enough, 
that is where we share the greatest overlap in common interest.
    The other issues that we have with Iran right now are even 
tougher, notably the nuclear one. I do think that it is as 
difficult as it has been because that government is so divided 
and so unable even to agree internally on anything. The 
prospects for success are slim, but there is no question that 
there have been overtures from the Iranian Government that we 
have rejected which suggest that notably and particularly in 
2003, but more recently as well. So I do believe that there is 
a slim hope for a conversation that moves forward based on the 
common interest in Iraq. I think its prospects would be 
improved if the U.S. had suggested that it was changing its 
political strategy in the country, as I mentioned.
    Mr. Hunter. Okay. Now, you told me where you think we have 
failed in rejecting what you think are some slim overtures from 
the Iranians.
    What do you think should be our message to the Iranians? 
And how would you engage with the Iranians beyond what 
Ambassador Crocker did here a month or so ago with the Iranians 
with respect to Iraq? Because, in fact, that is exactly what 
they did, they limited the conversation, as you know, to Iraq 
when they had the conversation with the Iranians. You made the 
statement that we were spending ten billion a month in Iraq and 
that that money would be better spent engaging in other areas 
of vital concern to us, including Iran. So I just wondered, how 
would you engage with Iran?
    Dr. Mathews. I think it has to be done at a higher level 
from Ambassador Crocker, much higher level. And it has to be 
sustained over a long time. It will not be easy. And again, I 
do think its chances of moving forward would be much larger if 
the U.S. had changed not its diplomatic strategy, but its 
political strategy in Iraq, and probably if the U.S. had 
indicated its intention to withdraw.
    Mr. Hunter. Okay. What should be the substance of this 
engagement, of our message to Iran, from your perspective?
    Dr. Mathews. I think the U.S. and Iran share an interest 
that Iraq not degenerate into total chaos. That is not in 
Tehran's interest any more than it is ours. And we have various 
of each other's interests, including the five interdeals, which 
is of critical concern of Iran's. So we have some mutual 
leverage. Those are the subjects that I would put on the table 
and pursue.
    Mr. Hunter. Dr. Kagan, tell us about your thoughts in terms 
of the capability of the Iraqi forces now, the stand-up of the 
Iraqi forces. In particular, too, I would like to have your--
you know, one thing that has been given constantly by what I 
call the smooth road crowd, that somehow there is a smooth road 
to occupation, and trying to deliver in an area that is very 
unfriendly to democracies, trying to deliver democracy, the 
idea that we should have kept Saddam Hussein's army in place 
with it's 11,000 Sunni generals, and somehow that would have 
been the smooth road to security in Iraq right now. But give us 
your unvarnished assessment of the capability of the Iraqi 
military right now in terms of its experience and its equipment 
and its leadership.
    Dr. Kagan. The Iraqi Security Forces, of course, comprise 
the police and the army, and the situation is very different in 
each. Speaking to the question of the Iraqi Army, it is a young 
force. It has not been in existence for very long. We have 
faced a very daunting challenge of starting from scratch and 
building that force.
    I agree with you that revisiting the question of what 
should have been done with Saddam's army is probably not 
fruitful at this point, but we certainly did face an undaunting 
challenge in putting any Iraqi force in the field. We have 
corrected many of the deficiencies in that force that have led 
to its failure to show up and fight adequately in 2005 and 
2006. And, in fact, Iraqi Army battalions and brigades are in 
the fight across the country, and they are in the fight, it is 
worth noting, not simply against al Qaeda, but also against 
Jaish al Mahdi.
    And when we were in Iraq in May of this year, I had the 
opportunity to go down to Diwania and meet with the Commander 
of the 8th Iraqi Army Division who has been conducting a very 
aggressive clear-and-hold operation in that very large city 
with very minimal coalition support against very serious Jaish 
al Mahdi fighters who are funded and advised by Iran. So you 
have Iraqi Army units fighting across the country with us in 
Baghdad, but I think we tend to focus too much only on what 
they are doing in Baghdad.
    I saw a press briefing recently that said there are 7,000 
Iraqi fighters in the southern belt working with Major General 
Lynch, and there are about 18,000 Iraqi Army soldiers in the 
north who are keeping Nineveh Province from falling apart. So I 
would say that the vast majority of the Iraqi Army is in this 
fight, it is doing well. It needs to be larger. Unquestionably 
it needs to be much larger. It needs to be better equipped, 
unquestionably. It needs to be better equipped. Both of those 
things should be a matter of priority, and I believe under the 
new command they are becoming a matter of greater priority.
    Mr. Hunter. And just for all of you, one aspect of al Qaeda 
involving itself in a way in attempting to end successfully, 
drawing Sunnis against Shiites and vice versa, the world has 
been treated to a specter on the international television of 
car bombs going off in the middle of crowds of women and 
children detonated by al Qaeda and reflected in that way by the 
commentators in the international news media over and over and 
over again. I can't help but think that the popularity of al 
Qaeda in what I would call the responsible Muslim community in 
the world, when they see these car bombs going off or ripping 
apart crowds of women and children, must be diminishing.
    What is your take on the perception of al Qaeda now by the 
world, the Muslim community, at this point in the Iraqi 
operation? Do you think they are losing some of their shine 
that they had initially and losing some of their popularity?
    Dr. Kagan. Congressman, I think it is very hard to gauge 
the popularity of a movement. I think what we can say with a 
fair degree of confidence is that there is an attitude in the 
Muslim world ``not in my backyard'' as it comes to al Qaeda. 
You will still find Muslims who are supporting the anti-
American message of al Qaeda and supporting various other 
aspects of that message, but what we have seen regularly is 
that as al Qaeda actually establishes itself in a country and 
starts to implement its version of radical Islam, locals start 
to resist, and a cycle of violence begins. That to me tells me 
that whatever else is going on, the message that they are 
carrying beyond anti-Americanism is not selling very well.
    Mr. Hunter. Dr. Mathews and Dr. Perry, what do you think 
about that? Do you think they are losing some of their initial 
popularity?
    Dr. Perry. I don't have an informed judgment on that 
question, Mr. Hunter.
    Dr. Mathews. I don't either in a broad sense, but I wanted 
just to refer you--and I wish I could remember the reference--
recently reported polling results in Egypt which show that more 
than 90 percent of the people viewing attacks on civilians is 
illegitimate and immoral, but over 93 percent view attacks on 
U.S. forces in Iraq as--including those that result in civilian 
deaths. We have to recognize the distinguishment that is being 
made that is related to what is viewed as a greater evil.
    Mr. Hunter. Well, I understand that. But al Qaeda is--I 
noticed in the Arab media is being identified as--when they 
show these mass bombings with women and children, body parts 
laying in the street from these big bombs, they are being 
identified in the media, international media, as being al Qaeda 
bombings. That certainly doesn't reflect on attacks on American 
troops.
    So my question is do you think that that is bringing down 
the image, giving them a demotion in the propaganda war, if you 
will, as a result of those attacks? The commanders who make 
those decisions to blow up crowds of women and children have to 
look at the upsides and the downsides. Do you think there is a 
downside for them in terms of their position in the Muslim 
world?
    Dr. Mathews. I don't know. I do think that attacks in Iraq 
are judged differently.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Regarding the Iraqi Army, General Peter Pace a few days ago 
made reference to the fact that the number of active brigades 
in the Iraqi Army has dropped--and I don't have the numbers 
before me--but has dropped by several numbers. I am sure 
someone can get that statement for us. But needless to say that 
is of great concern.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    First of all, let me say I agree substantially with Dr. 
Mathews and Dr. Snyder's comments that, you know, a foreign 
military occupying force being able to solve the issues of such 
a power vacuum, power struggle, civil war in Iraq is hard to 
imagine, and also the notion that there is a certain amount of 
political pressure that we can put on them to get them to 
resolve their differences. The differences are heartfelt and 
deep, and they are not going to resolve them, because the bulk 
of Shi'a and Sunni are both sort of holding out for the notion 
that their side can win, and they don't want to reach political 
accommodation because their constituents don't want them to. 
And we can bang our heads against that wall for a long time. 
Those fundamental realities don't seem to me like they are 
going to change.
    And if there is some assurances that any of you can give me 
that I am missing something here, and that there is a greater 
possibility of reconciliation any time in the future that we 
can see, I am happy to hear it. I doubt it. But even assuming 
for the moment that that is wrong, that we could, in fact, 
somehow, you know, force a political solution there, the troop 
numbers are disturbing to me in terms of our commitment. Let me 
say why. And I have heard even the generals--I think General 
Petraeus said this, it might have been somebody else, that the 
surge at its current level is not sustainable past next spring 
no matter what; that basically we don't have the troops to 
sustain it at that level.
    So if you accept the clear-and-hold strategy--as I see it, 
there are two flaws to it. One is the one that I mentioned, 
clear and hold for how long? Until they decide to resolve their 
differences politically? Well, as I just said, and as many of 
you have said, it doesn't look like that is going to happen. 
But the second is we don't have the troops to do that.
    If we could be sort of everywhere in Iraq for as long as we 
want, then possibly that level of military presence could keep 
things under control, but as it stands right now, we are 
squeezing a balloon. We go into one area, get it under control, 
leave to go to another area, and it just continues. And given 
that we don't have the troops to maintain this past next spring 
under any scenario, how do we get over that hump? How do we 
deal with the troops?
    I guess two parts to that question. One, is it wrong? Do we 
have the troop strength to maintain this level of troops past 
next spring, or under what scenario does this work if we don't 
have those troops, given the incredible emphasis on the hold 
part of this? We don't have the troops to hold it past next 
spring. How is that possibly a sufficient amount of time? I 
start with Dr. Kagan.
    The Chairman. Just a minute. As the gentleman can notice, 
the light is not working, so we are keeping time here at the 
desk.
    Mr. Smith. I trust you, Mr. Chairman.
    The Chairman. Please proceed.
    Dr. Kagan. Congressman, first of all, we are not squeezing 
the balloon. We are operating. We are not simply hitting them 
in one area and then moving to another. We are deliberately 
clearing a large swath of central Iraq, including almost all of 
the major insurgent havens, all at once. And it has been 
frequently reported by soldiers on the ground and even by media 
over there that the insurgents are having a hard time finding 
new places to move to in the area that they care most about and 
reestablish themselves because they are tending to find there 
are also American forces working with Iraqis there as well.
    Mr. Smith. But the violence is popping up. I mean, it just 
popped up in Kirkuk. It popped up in Baquba when we were in 
Baghdad. It seems like they may not be happy there, but they 
are certainly killing and causing destruction there.
    Dr. Kagan. Congressman, there has been al Qaeda attacks in 
Kirkuk at least once a month going back to January before that, 
and there has been violence in Baquba well back in 2006. This 
is not a new thing. This is not a question of them moving back 
to Baquba. They have been there all along. Zarqawi was captured 
not very far from Baquba, which is where they established the 
Islamic State of Iraq. This is not squeezing the balloon. We 
have just cleared Baquba, in fact, for the first time. And we 
have cleared it, and we are holding it, and we are holding it 
simultaneously as we are operating in Fallujah and Yusufiya and 
Mahmudiyah and Salman Pak and Arab Jabour and Taji and Tarmiya 
and Lake Tharthar.
    Mr. Smith. Skipping forward to next spring when we can't 
hold it any longer because we don't have the troops to maintain 
the surge, what happens then?
    Dr. Kagan. I don't accept that premise, Congressman. I 
think people have said various different things about this. We 
can sustain the surge beyond April if we choose to, if it 
becomes necessary. And then the other question is how rapidly 
do we start drawing down, because you can start drawing down 
potentially in the spring. The assumption that would undergird 
that would be an optimistic scenario, that violence--would get 
violence sufficiently under control while we are increasing the 
size and capability of the Iraqi Security Forces; that it will 
actually become possible to hand over to them and have them 
maintain it, because that has been the aim of the strategy all 
along. This has always been designed to be a bridging strategy, 
to bring the level of violence down to a point of which the 
Iraqi Army and police can secure it and continue it.
    Will that happen by the spring? I am not sure. Could we 
continue this surge beyond the spring if we chose to? Yes, we 
could. We will have to see what will become necessary. But I 
think we should make that decision when the time is upon us and 
when we have a better idea of what the situation on the ground 
actually is.
    Mr. Smith. Well, I guess I am out of time. I was interested 
in the comments of the other two panelists.
    The Chairman. Was the question fully answered?
    Mr. Smith. It was fully answered by Dr. Kagan. I was 
curious of Dr. Perry or Dr. Mathews.
    The Chairman. Quickly, Dr. Perry.
    Dr. Perry. If we want to extend the surge beyond spring, 
the most obvious way to do that and the most undesirable way to 
do it would be to extend the deployment of the troops that are 
already there.
    Dr. Mathews. I would just add that I think U.S. Generals 
have made pretty clear that their judgment is that Iraqis would 
not be able to manage the security of Iraq alone for several 
years. This is not a question of next spring.
    The Chairman. Thank you.
    The information to which I was making reference a few 
moments ago from General Peter Pace is that earlier there were 
ten battalions of the Iraqi Army operating independently, and 
today there are six Iraqi battalions operating independently.
    Mr. Saxton.
    Mr. Saxton. Mr. Chairman, thank you. I appreciate the 
opportunity to ask a question at this time.
    Let me just ask this. Well, let me say this first. I think 
it is important that we all recognize who our enemies are in 
the war and particularly in the front in Iraq. Recently a top 
al Qaeda leader in Iraq was arrested by U.S. forces. His name 
was al Mashhadani, also known as Abu Shahid. He was actually 
captured in early July. And information, according to press 
releases, indicate that al Qaeda central, that is the main al 
Qaeda leadership in Pakistan or wherever they are, is providing 
direction to al Qaeda in Iraq. Al Mashhadani states, quote, the 
Islamic State of Iraq is a front organization that masks the 
foreign influence and leadership within al Qaeda in Iraq in an 
attempt to put an Iraqi face on the leadership of al Qaeda in 
Iraq.
    I guess I am interested to know what your take is on this 
specific information. I just open that up to anybody that wants 
to comment.
    Dr. Kagan. I was very pleased to see the release about the 
capture of this individual, who, according to press release, I 
believe, is the top Iraqi in al Qaeda in Iraq. The group, as we 
know, is headed by Abu al Massari, who is an Egyptian. The 
number two--another--al Massari just means an Egyptian, another 
fellow who was identified in that way was recently captured.
    We have been rolling up this al Qaeda network in a variety 
of ways, and I hope that this capture will help lead us to 
others as previous captures have done. It supports, in my view, 
unequivocally the fact that al Qaeda in Iraq is connected to 
the global al Qaeda movement, which is apparently important 
because some people in this town have been casting doubt on 
that. It is not equivalent to it. Al Qaeda is a franchise 
movement. Individual groups pop up on their own, as this one 
apparently did in Iraq, but they then do attempt to link into 
the global movement, which is significant because the global 
movement then directs resources in various ways to different 
regions depending on its prioritization. It has been 
prioritizing Iraq very heavily, and it has been sending, 
according to General Petraeus, anywhere from 40 to 80 foreign 
fighters a month into the country. That sounds like a very 
small number, but we also know that about 80 to 90 percent of 
the suicide bombers in Iraq are foreign fighters, and the 
suicide bombings create a disproportionate sense of defeat 
here, a disproportionate sense of violence in Iraq and were, as 
you know, critical to helping establish sectarian violence.
    So I think that there is no question this capture along 
with many others supports on the one hand the conclusion that 
this al Qaeda in Iraq is tied to the global al Qaeda network in 
a way that is very worrisome, but it also shows that we are 
being successful in Iraq in identifying these individuals based 
largely on local tips and information that we get from being 
there, rounding them up and unraveling this network.
    Mr. Saxton. I do have a follow-up question, but I would 
offer the opportunity for either of the other witnesses.
    Dr. Perry. I don't have anything to add to what Dr. Kagan 
said. Thank you.
    Mr. Saxton. Dr. Kagan, with regard to the al Qaeda network, 
when we think of an organization, particularly a military 
organization, we think of a line of command and a formal 
structure within which that military organization operates. 
Based on your experience, could you describe for us the nature 
of the al Qaeda organization?
    Dr. Kagan. I will do my best. It is not an easy thing to do 
without access to the classified information since most of our 
understanding of this comes from sensitive intelligence, and I 
don't have that, but it appears that al Qaeda in Iraq does have 
actually a fairly impressive hierarchical organization, and 
they do tend to establish regional emirs in different parts of 
the country that are responsible for that, that are coordinated 
with the central leadership cell.
    That having been said, it is a cellular organization based 
on old revolutionary principles, that it is designed to 
maximize security. So it is difficult when you grab one of 
these guys to just get everyone else rolled up. And it is an 
organization in which local initiative plays a big role 
balanced with the allocation of resources and priorities from 
the top. So it is a very flexible, very adaptive organization. 
It is one that is very difficult to go after.
    The best way to go after it is to get--is to eliminate its 
popular support, and that is what we have been helping to do in 
Iraq, because the Iraqis have turned against al Qaeda, and we 
have been supporting them. That is by far the most significant, 
most permanent and most likely to be successful approach that 
we can follow. Chasing these guys around with Special Forces is 
a much harder thing that is much less likely to lead to 
success.
    Mr. Saxton. Thank you, Mr. Chairman.
    And thank you, Dr. Kagan.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you to all of you for being here.
    I wanted to follow up a little bit on this discussion, 
because, Dr. Kagan, you are suggesting, I think, that al Qaeda 
in Iraq is composed of the Sunni insurgency essentially, that 
they make up basically al Qaeda in Iraq. I wanted to explore 
that a little bit further because we certainly know that there 
are many experts out there, among them Dr. Cordesman and 
others, who have spoken more to the fact that these are not 
necessarily jihadists, they are Sunnis who are opposed to the 
occupation, and they certainly are involved in a power grab, 
which we can well understand. But there is a difference here of 
how we describe the Sunni insurgency as al Qaeda versus Sunni 
insurgency. Could you break that down in your thinking, 
particularly in terms of numbers and ideology?
    Dr. Kagan. Very happily, Congresswoman. I am not sure you 
were here for my opening remarks.
    My focus was on saying that I do believe from 2003 to 
January of 2007, we were primarily dealing with the Sunni Arab 
insurgency. It was about the fact that the Sunni community did 
not want to accept a lesser role in Iraq, and that a major 
shift occurred in February 2006 when the sectarian violence was 
ignited.
    I absolutely do not think that al Qaeda makes up even the 
majority of the Sunni resistance movement. It plays a 
disproportionate role because of the nature of its attacks and 
its objectives and its organization.
    One of the interesting things that we have seen is that in 
part, in my view, as a result of the surge and the pressure 
that we have been putting on the other Sunni insurgents, we 
started to see the Sunni Arab insurgents turning against al 
Qaeda themselves, and we have been able to broker cease-fire 
agreements with the 1920's brigades which are very hard-core 
Baathist insurgents to cooperate with them against al Qaeda.
    So it is absolutely possible. Al Qaeda is certainly the 
smallest in number of the insurgent groups, if you want to 
regard it as an insurgent group. Its objectives are 
fundamentally different in any event. It is a terrorist group.
    Mrs. Davis of California. If I may, though, I think because 
of the way we discuss it in many ways--I don't even think in 
your comments one would assume from that that it is the 
smallest group, and I don't know whether Dr. Mathews or Dr. 
Perry wants to comment on that, But is part of the difficulty 
that it is perhaps more emotional? I am not suggesting in any 
way that their tactics aren't horrific and that we need to 
respond to them, but I also wonder whether it is part of the 
way in which we are discussing and being somewhat unclear about 
the makeup of the insurgency.
    Part of that leads me to a question that I would like you 
all to address, is how then we counter that, whether through 
propaganda, through our media, through their media. Have we 
really taken ahold of being able to do that, and isn't it 
partly because we have done it--seeing them really as al Qaeda 
as opposed to other issues that we might address?
    If I may, in another question, Dr. Mathews, I think real 
quickly with my time here, one of the things that you mentioned 
is that we really have not articulated our intentions, our 
long-term intentions, in the region.
    And I wonder if that isn't part of the problem that we have 
had as well, that we haven't really put that out there. I mean, 
we are talking about the surge, clearly, but I was just in Iraq 
last week, and if you ask, what are our long-term strategies in 
Iraq and in the region, people start talking about the surge 
again, which is not--which is not the strategy that we should 
be focussing on.
    So, number one, is part of the difficulty that we really 
are not being very discerning about these insurgent--about al 
Qaeda and the insurgency? And also, what do you think our 
strategy should be to counteract that in the media perceptions 
not only in Iraq, but here at home?
    Dr. Mathews. Well I think, Congresswoman, that there are 
two different ways to send a message about what our intentions 
are. One is what we say, and one is what we do. I was trying to 
make the point that what we are building there suggests very 
strongly to people there and in the region that we intend a 
permanent presence, and we intend to use Iraq, as somebody has 
said, sort of as an American aircraft carrier to project power 
in the region.
    I think that is a big mistake. I think this body ought to 
take on that issue and debate it, debate its wisdom. Instead 
this question of funding provisions has been sort of an 
ineffective proxy for that.
    On the other question that you were asking, you know, I 
think it is a terrible mistake to grant al Qaeda in Iraq more 
importance than it deserves and, even in a broader sense, to 
obsess more about al Qaeda as a threat to the U.S. more than it 
deserves. And finally, I think it is important to note that I 
think it was either General Petraeus or General Pace who ranked 
it fourth among--out of five among the threats that we face in 
Iraq.
    The Chairman. I thank the gentlelady.
    Mr. Jones has a question, I understand, and then we go to 
Mr. Murphy.
    Mr. Jones. Thank you, Mr. Chairman.
    And I just want to read very quickly, and then I do have a 
question primarily for you, Dr. Perry. An article in the North 
Carolina paper, The News & Observer, April 23, 2007, the title, 
``Deployed, Depleted, Desperate''. Here is a question to those 
who still support President Bush's strategy to stretch out the 
Iraq war until after he has left office, and for those who 
think we should be prepared to continue our bloody occupation 
of Iraq for five or ten years. This is the question--not you 
personally. But this is the question in the article: Are you 
ready to support reinstating Selective Service? I have Camp 
LeJeune in my district. I have met with many Army and Marines. 
They are the best, but they are tired, and they are worn out. 
If we are going to increase the numbers, where in the world are 
we going to get the people?
    And let me read quickly--and I will let you answer. And 
from the same article: Did demands of the war on our troops and 
their aged and worn-out equipment already have pushed the 
annual cost of enlistment and reenlistment bonuses above $1 
billion, and of recruitment advertising to $120 million 
annually?
    I hope I am wrong, but I will tell you that I have been 
here for 14 years, I go to all the meetings I can go to learn 
because I am not an expert in anything, but I just don't see 
where we are going to get the manpower if we don't discuss the 
draft, if we are there with what we have now. If we increase 
the numbers, where are we going to get the manpower? Do you 
think there is going to come a time that this Congress and the 
President, whoever he or she might be, are going to have to 
discuss the draft?
    Dr. Perry. Yeah. If you consider a draft and ask me to 
testify, I would testify against it. I think the all-volunteer 
force has been an amazing success in this country, and I 
strongly support it, and I would not support going to a draft.
    Mr. Jones. Well, I guess I will ask Dr. Mathews. If 
projections--and projections sometimes are wrong, I am the 
first to acknowledge that--but if projections are accurate, and 
we have got fewer people who are going into the voluntary 
service because of our commitment in Iraq of thousands and 
thousands of troops, and they know they are being worn out, and 
then you have to say, well, where are we getting the manpower 
pool? I am not saying do you advocate a draft or not, but where 
do you go?
    Dr. Mathews. Congressman, I am really--I am not enough of 
an expert. I have views on the draft, but they are views of a 
layman, and they really don't deserve, I don't think, to be 
aired here.
    Mr. Jones. Well, I guess the point is are we going to have 
to grapple with that, Americans are going to have to grapple 
with that. And if it continues to go the way it is going with 
our troops going four and five times around, somebody at some 
point in time is going to have to think, where do we get the 
manpower from?
    Dr. Mathews. I think that is undeniable.
    The Chairman. Thank you very much.
    Mr. Murphy.
    Mr. Murphy. Thank you, Chairman.
    And I know Mr. Jones's kind of question about the manpower 
here in America. My focus is about the manpower over in Iraq. 
When I was there as a soldier in 2003-2004, I had trained over 
600--helped train over 600 Iraqi at that time, called Iraqi 
Civil Defense Corps (ICDC), now called Iraqi Army. And we 
continually hear from the President that the critical mission 
in Iraq from--we hear this from President Bush is that when 
they stand up, we will stand down. However, when you look 
back--when I was there in 2003, when we trained these ICDC, we 
didn't have uniforms for them. In fact, we gave them Chicago 
White Sox hats to identify them. That is how little support the 
Administration gave us to execute this critical mission.
    That was four years ago. Now it doesn't seem like we are 
moving forward far enough. Five days ago, July 13, I know 
Chairman Skelton mentioned it in the New York Times article, 
said, American commanders in Iraq said, and I quote, ``The 
effort to train Iraqi Army and police units had slowed in 
recent months, and would need to be expanded to enable any 
large-scale reduction in American force levels,'' end quote.
    The reason given for this lack of progress was in large 
part because preparing Iraqi units to operate without American 
backing have become a secondary goal under the current war 
strategy, which has emphasized protecting Iraqis and the heavy 
use of American combat power. In short, the surge strategy 
emphasizes peacekeeping and force protection and deemphasizes 
training Iraqi troops.
    The President's escalation has simply enmeshed American 
troops even further being peacemakers in Iraq's religious civil 
war. General Pace recently said that there are 6,000 American 
soldiers involved in the training mission, 6,000 out of 
158,000. That is less than 1 in 25, 4 percent. In fact, a 
number of Iraqi battalions rated as capable of operating 
without American assistance fell to six this month. That is 
down from ten in March, shortly after the escalation of troops.
    With this in mind--and all that the escalation has done is 
to make the Iraqis even more dependent on our American GIs and 
marines, not less. I would like to have your thoughts on my 
comments. If I could start with Dr. Perry.
    Dr. Perry. I concur with the assessment that you just gave 
me. The Iraq Study Group's recommendations were to increase 
the--increase, not decrease, the emphasis on training, and to 
do that by putting an emphasis on embedding troops, American 
troops, within the Iraqi forces, a way of increasing their 
professionalism.
    We got various assessments to how many troops we have 
involved, but we are talking about probably 15,000 to 20,000 
troops involved in the training and embedding missions as 
opposed to the 6,000 that you are describing now.
    Mr. Murphy. Thank you.
    Dr. Mathews, please.
    Dr. Mathews. I just wanted to add that there has never been 
a satisfactory explanation of the desertion rate in the Iraqi 
Security Forces. And General Pace's comments--you know, there 
is a quality of sand being poured into a bottle and running out 
the bottom that should make us, I think, ask ourselves 
something that you know well, which is that an Army's most 
important asset is its motivation, its will, its knowledge of 
who it is fighting for and for what. And that is a good part of 
why the return on the investment we have made in training has 
been so low, in my judgment.
    Mr. Murphy. Dr. Kagan.
    Dr. Kagan. Congressman, I would like to thank you for your 
service to the Nation both as a soldier and as a Congressman.
    I don't agree that we are pouring sand into a bottle would 
just keep coming out of the bottom. The desertion rate in the 
Iraqi Army actually tends to be relatively low compared to 
desertion rates in armies historically. It is not low compared 
to ours, but ours is the best in the world by a long margin.
    Mr. Murphy. If I could focus now, Dr. Kagan, six now of the 
Iraqi battalions are dropping.
    Dr. Kagan. Yes. We have reduced--the number of Iraqi Army 
that is capable of operating independently has apparently 
decreased. The number of Iraqi units that are fighting actively 
against the enemy, fighting bravely, taking casualties every 
day and continuing in the struggle is increasing. Iraqis 
continue to volunteer. And when you keep in mind that Iraqis 
volunteering until very recently had to run the risk of being 
attacked with suicide bombs at the recruiting stations, and 
that basically because it is a volunteer force and because of 
the way the Iraqis do leaves, which has been criticized widely, 
but it is the way they do business, they basically have to re-
up every month when they come back from their leaves, and they 
do that even in the midst of very hard fighting, even among 
very heavy casualties. So I really have to take exception to 
the notion that the Iraqi Army is not standing up to this fight 
in some way, not that you have said that, but others have been 
making that case, and I find that very disturbing.
    The Chairman. I thank the gentleman.
    Mr. Johnson from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Kagan, although you have been kind of like a lone wolf 
at your last couple of hearings, I think you have done an 
admirable job of presenting an alternative view on things in 
Iraq. And I would like to just ask you whether or not it is 
true that there are other strategic challenges that the U.S. 
may have to confront around the world in addition to the Iraq 
force that permeates violence over there, al Qaeda in Iraq, al 
Qaeda in general. There are other strategic challenges that we 
may face throughout the world; is that correct?
    Dr. Kagan. Yes, of course it is, Congressman. We face the 
challenge of being a global power with interests around the 
world, and we face a number of potential threats. In fact, we 
face a number of active enemies, including states that are 
actively working to support those who are killing our soldiers, 
which includes Iran in this case. And there are other threats 
that we can identify. Of course, North Korea is a major 
challenge, China is a major challenge, the instability in 
Pakistan is a major worry. Clearly there are all sorts of 
threats around the world, but I think that it is important to 
identify----
    Mr. Johnson. I want to stop you right there. Are we at risk 
of being unable to meet other challenges because our U.S. 
military is bogged down in Iraq?
    Dr. Kagan. I am going to hesitate because I know that the 
Chairman of the Joint Chiefs stated not very long ago that he 
did not believe we were at risk of being unable to meet 
challenges elsewhere based on his professional evaluation of 
the situation, the likely nature of those threats.
    Mr. Johnson. What is your opinion about it?
    Dr. Kagan. Not having looked into what would be required in 
various scenarios very carefully, I clearly think we clearly do 
have challenges, and I have been on record all along as saying 
that I was concerned that the military was too small, and I 
worried about this even in the 1990's. So I believe we do 
continue to face challenges.
    Mr. Johnson. Okay. Thank you, Dr. Kagan.
    Dr. Perry, thank you for your service to the Nation and 
your long and distinguished career in academia and business as 
well. It has well prepared you for the tasks, the recent tasks, 
that you have undertaken.
    Dr. Perry. Thank you.
    Mr. Johnson. Thank you for your service.
    What are your thoughts on our ability to meet any of the 
challenges that may arise around the world, given our----
    Dr. Perry. I think our overextension of our armed forces in 
Iraq puts at risk our ability to meet these other challenges. 
And indeed, I believe the perception of other nations, even if 
it is an incorrect perception, that we are tied down in Iraq 
has already led them to take actions which are adverse to 
American interests.
    Mr. Johnson. All right. Thank you.
    And, sir, you mentioned something about we need to create 
disincentives for Iran and Syria in supporting sectarian 
violence in Iraq. What are these disincentives.
    Dr. Perry. Pardon me?
    Mr. Johnson. You mentioned something about we needed to 
create disincentives for Iran and Syria to continued support 
for sectarian violence. What are those disincentives?
    Dr. Perry. I would be most optimistic about our ability to 
work with Syria, which I think is working against our interests 
in Iraq today. I think we have leverage on Syria, and I think 
we could use that leverage effectively, but it would take a 
really concerted and sustained diplomatic effort to do that.
    We have done that in the past with Syria. When Mr. Baker 
was the Secretary of State, he met a dozen times with Syria in 
trying to get them to take actions which we wanted to take 
relative to Israel and was ultimately successful in that. But 
it takes a long and sustained diplomatic effort. It cannot be 
done by our ambassadors in the region. It cannot be done on a 
one-time basis.
    Mr. Johnson. All right. Thank you.
    And, Dr. Mathews, you gave a very cogent analysis of our 
thinking in terms of this so-called troop surge, and you had 
stated that the struggle for power is created by the political 
vacuum that was left by the leadership void that was taken out 
in Iraq, and that this political power struggle is just a 
natural result of that, and it is not soon to end.
    Do you have any ideas about how long it might take for the 
sectarian forces to fight their way out of this and come to 
some kind of a political solution and end the fighting over 
there?
    Dr. Mathews. The record is that once these sorts of 
struggles start, they take a very long time to burn themselves 
out, because, of course, the longer they go on, the more people 
are hurt, the more people have lost family members, friends, 
houses, businesses, et cetera, and the greater the motivation 
is to keep going. So the record since 1945, if you look at all 
the civil wars that have taken place, is that on average they 
last ten years.
    I do think that there is some hope, and it is a very small 
one, as I said, that we could attempt to go back and recreate 
the step that we tried to skip of allowing a full-fledged 
debate among Iraqis as to their political future. We tried, 
rather, to put our own set of, in my view, wholly unrealistic 
deadlines on them and to restrict the debate to a very tiny 
circle of largely exiles, and that produced a truncated 
political sorting out that has now manifested itself in the 
streets, in this armed struggle. If it goes on, I think it 
will--like this, it will go on for many, many years, and----
    Mr. Johnson. And that is whether we are there or not?
    Dr. Mathews. I believe so. I mean----
    Mr. Johnson. We can't stop it by our presence?
    Dr. Mathews. I think the evidence suggests not.
    Mr. Johnson. Thank you.
    The Chairman. The gentleman from Georgia may be interested, 
in 1994, on the way to the 50th anniversary of D-Day, I had 
occasion to go near the Royal Marine headquarters near Exeter, 
England, and I was briefed by two sergeants that had just 
returned from lengthy stays in Bosnia, and both of them agreed 
that this will end soon because everybody is getting tired of 
fighting. And sure enough, not too long thereafter, we had the 
peace accords.
    I think the question might be, Mr. Johnson, as to if and 
when they will all get tired of fighting. And if there is any 
indication or any precedent, I think it would be that in 
Bosnia.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Dr. Perry, when the Iraq Study Group produced its report, 
there was about one page in the whole document dealing with the 
concept of partition. It was pretty much dismissed out of hand. 
And since the report was issued, and we now know from the 
United Nations that there are four million refugees in Iraq, 
two million internally, who have kind of fallen back into their 
own sectarian or ethnic enclaves, the central government 
clearly is not hitting on all cylinders in terms of trying to 
reach reconciliation.
    You know--and we have talked about Bosnia now at least a 
half dozen times during the course of this hearing. It just 
seems to me that maybe we should revisit that concept. And 
again, I am not talking about hard partition or soft partition, 
but clearly people are retreating into their own--what they 
feel is the only safe place they can go, which is their 
families and their religious groups. And I was just sort of 
wondering, A, why was the study group that dismissive? And, B, 
do you think it is time to maybe revisit that?
    Dr. Perry. Even though we had only one report about 
partition, we spent considerable time discussing it and 
debating, including hearing excellent briefings from Mr. Gelb 
and Senator Biden, both of whom are strong proponents of it, as 
you know. And I believe there was a time when that might have 
been an appropriate move for the American Government to take.
    I do not believe we have the power to effect that today. 
When we were in Iraq, a question we asked each of the members 
of the Iraq--we talk to all members of the Iraqi Government, 
dozens of them. A question we asked each of them was would they 
support a move toward a partition? And to a man--and they were 
all men--to a man they all said no, very strongly opposed to 
it.
    Now, to be sure, they all had a vested interest in a 
partition. But the point is this is a government which we 
helped set up the process by which it was established, the 
government which is elected by the Iraqi people. So for us 
today to impose partition, the first thing we would have to do 
is remove that government, which would be, you know, an 
enormous undertaking and set us back in ways that are really 
quite unpredictable. My judgment today is we no longer have the 
option, the United States no longer has the option of imposing 
a partition. In our discussions in the Iraq Study Group, many 
of us believed that that is what Iraq would evolve to in time 
anyway, but we did not have the power to make it happen.
    Mr. Courtney. It does seem people are voting with their 
feet in that direction.
    Dr. Mathews, I don't know if you have any observations on 
that issue.
    Dr. Mathews. I would go one step further, which is--than 
Secretary Perry, which is I think it is a matter of U.S. 
policy. I agree with him that we don't have the U.S. troops to 
execute this policy peacefully or even reasonably peacefully, 
but I think as a choice, conscious policy, it would be a 
terrible mistake because it would convince all those in the 
region, and there are many, many of them, that we came there 
into Iraq to dismantle the strongest Arab State in the interest 
of Israel. And I think, you know, as a political choice of 
policy to pursue partition, I agree that it may very well be 
where things end up, but that is a very different thing than 
the U.S. adopting it as its policy. I think it would be very, 
very unwise as well as unfeasible.
    Mr. Courtney. I mean, the other recommendation of the study 
group, which was to embed and train Iraqi troops. There was a 
comment--Colin Powell was quoted in State of Denial--I guess he 
had a conversation with President Bush after he left the 
Secretary of State's office, where he warned that if you don't 
have a government that troops--that an Iraqi Army is connected 
to, then all you are doing is training militia. I was just sort 
of wondering what you thought of that observation.
    Dr. Perry. I think it is a very good observation, and it is 
certainly one of the dangers of the tactic of training Iraqi 
troops.
    I should say more generally that even if all the 
recommendations of the Iraq Study Group had been carried out, 
we had no assurance that that would lead to a stable Iraq 
because of the uncertainties about whether the Iraqi Government 
would be able to sustain. Not only the President's strategy, 
but the strategy of the Iraq Study Group really depends on the 
Iraqi Government being able to sustain itself, and I do believe 
that that is important, very much in question.
    Mr. Courtney. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Sestak.
    Mr. Sestak. Thanks, Mr. Chairman.
    Secretary Perry, when you came here in February, I asked 
you the question, how long would it be before you became a 
date-certain person? And you answered, about six months. Do you 
still believe that? Are you there at this time as the best 
strategy?
    Dr. Perry. I am not there yet.
    Mr. Sestak. It is not six months yet.
    Dr. Perry. No. But I agree with the President's assessment 
that a departure from Iraq today would lead to disastrous 
results. I think there is still an opportunity to try to make 
the situation stable before we leave, and I still believe that 
the recommendations of the Iraq Study Group are the best way of 
achieving that.
    Mr. Sestak. With regard to the Iraq Study Group, two branch 
questions. Iran, in your testimony what I read and what you 
have said, we had Mr. Fingar, the head of the National 
Intelligence Council, here about a week--a few days ago. He 
reminded us that the National Intelligence Estimate about a 
year ago said that any rapid withdrawal, defined at 18 months, 
would have Iraq spin into chaos. Earlier he had said, however, 
that Iraq does not want, as you said, Ms. Mathews, Dr. Mathews, 
a failed state, a fractionalized government. When he was asked 
did that 18-month assessment of spiraling chaos include Iran 
being involved, he said no. When asked if it would make a 
difference, he said, you know, it would. Doesn't know exactly. 
Is Iran critical? Is it the critical piece with Syria to 
having--if there were to be by force of law a date certain, 
given enough time, key to leaving behind an unfailed state?
    Dr. Perry. I think both Iran and Syria are playing critical 
negative roles today. As I have testified before, I think we 
have some opportunity to influence Syria in a more positive--
take a more positive course. I am not at all confident we 
have--today have the ability to influence Iran to take actions 
which we want them to take.
    Mr. Sestak. Dr. Mathews, you have kind of touched on this 
already.
    Dr. Mathews. I am not sure I have more to add to what 
Secretary Perry just said. I think those are the two critical 
players. But again, I think there--what they are willing to do 
depends enormously heavily on what our posture is.
    Mr. Sestak. Correct. And that is why my question is, does 
date certain, we won't be there, not just on an interim basis, 
give the incentive for them to participate positively? Now, Dr. 
Fingar said yes, Mr. Fingar, the head of National Intelligence 
Estimate.
    Dr. Mathews. I think it is--I am hesitating because I think 
we--that everybody in this town has been too sure about things 
that were--this is a multivariable equation, and we tend to 
always talk about it one at a time. I think that that is the 
most likely outcome, that they would be more willing, and that 
Tehran in particular shares an interest in not having chaos on 
its borders.
    Mr. Sestak. Dr. Perry, one other thing. December 6 you came 
out with the ISG, and you had a goal of end of March for the 
combat troops to have been redeployed. I have watched Somalia 
where it took us 6 months to get 6,300 troops out of there, as 
you remember, and we had still another 17,000 over there just 
to make sure it was a safe redeployment. And we didn't have 
over 100,000 U.S. civilian contractors in that country as we do 
in Iraq. Many people now go to that date that you have 
established as the date to some degree twofold. That date, if 
it were to be a goal and become a date certain, is it really 
the right date, or did you really mean about a year and a 
quarter? And number two is----
    Dr. Perry. Iraq Study Group was a date by which we could 
have the combat brigades that were patrolling the streets of 
Iraq out of Iraq. But even by that date, we would still have a 
strong rapid reaction force in Iraq, we would still have 
support forces in Iraq, there would still be contractors in 
Iraq. We did not describe a strategy for completely withdrawing 
from Iraq. I believe that would be a very, very complicated 
strategy to execute.
    Mr. Sestak. Thank you.
    The Chairman. Thank you.
    I have left on the list Mr. Loebsack, Ms. Shea-Porter and 
Mr. Andrews in that order.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    Thanks to the three of you for being here and testifying 
today. I am sorry, I was in a previous hearing as well, markup. 
That is why I am so late. Some of the things that I may cover 
may have been covered already, and I apologize if that is the 
case.
    I want to mostly address my comments and my questions to 
you, Dr. Kagan. I just want to make a couple of comments at the 
outset. When you were asked if we have enough troops for the 
surge, you quoted General Odierno. Of course, we know he is not 
the person who is in charge in Iraq. It is General Petraeus, 
and if the record shows otherwise, I will be happy to be 
corrected. But to my knowledge, General Petraeus has never 
stated so unequivocally as General Odierno has that we have 
enough troops for the surge. In fact, some of us were in Iraq 
in February, Congressman Andrews and some others, and if I 
remember correctly, we asked General Petraeus directly if we 
had enough troops, and essentially he said that is all the 
troops that he has. So I just want to make that clear at the 
outset.
    Also, we had a bit of an interchange long ago, I think a 
couple of months ago, about Bosnia and whether we really should 
compare Bosnia to Iraq. Now, you began to make that comparison 
earlier, and then you qualified that by saying you didn't want 
to make that comparison, but nonetheless you sort of indicated 
there was a comparison. I just want to state for the record 
that Bosnia of 1994, 1995, is not Iraq of 2007. They are 
qualitatively different in a variety of ways, and I am sure you 
know which ways they are different. So I think it is very, very 
important when we talk about how complicated this situation is 
that we not even hint at some kind of historical analogies that 
don't begin to come close to describing the situation or 
helping to sort of--helping us here in Congress in particular, 
let alone the American people, to understand what is happening 
in Iraq at the moment.
    Also, when you talked about al Qaeda and how much support 
they have, you mentioned the way they go about trying to 
increase their support, classic insurgency of one sort or 
another, as you mentioned, terrorize the population, what have 
you, also creating a situation where the population loses 
whatever confidence it may have in the authorities at the time. 
But then you mention later on that you are not at all 
optimistic that al Qaeda can hold that support for any length 
of time because of the terrible things they do to people and 
other things.
    I do want to ask you a question. In, say, 2004 or even 
2005, did you think that Iraq, Ramadi in particular, Fallujah, 
Anbar Province--that we may be today in Anbar Province where we 
are? Did you anticipate yourself that the sheiks--and not all 
the sheiks, as we know, are on board in this, most of them are. 
Did you anticipate that there was any possibility whatsoever 
that the sheiks would turn against al Qaeda? Did you personally 
anticipate that?
    Dr. Kagan. I did not. I was very pleasantly surprised by 
that development.
    Mr. Loebsack. I talked to people in the State Department at 
that time who were very confident that even if the United 
States were to withdraw at that time, that eventually the 
sheiks, those in control in Anbar Province, would, in fact, 
turn against foreign fighters. Now, we know that many of the al 
Qaeda now are apparently home-grown Iraqis, but at that time 
there were, in fact, people predicting that that would be the 
case. So again, you didn't anticipate that.
    I have some concerns, obviously, about depending upon your 
analysis at the moment and how you see things going in the 
future. Now, that may not be fair, but nonetheless, that is the 
concern that I have. You mentioned at one point--and this goes 
back to your interchange with Congressman Murphy. But before 
that you mentioned that there are many Iraqis who are doing 
well, fighting well, they are brave and all the rest. I need 
more than many. Can you put any kind of numbers on this? And 
that will be my last question.
    Dr. Kagan. Congressman, I would have to get back to you 
with that. I don't have the numbers off the top of my head 
about how many units. I can tell you that we have got about 
7,000 in Baghdad, 7,000 outside of Baghdad. There is a 
division's worth in Diwaniya, there is a division's worth in 
Nasiriyah, and there is 18,000 in Ninawa. Those are the ones I 
can think of off the top of my head, a significant portion of 
the Iraqi Army.
    You know, I can go back and try to top up what I think all 
the rest of the figures are. Oh, and we have 12,000 in Anbar, 
who have signed up this year, whereas previously we were not 
able to recruit anything in Anbar.
    [The information referred to can be found in the Appendix 
beginning on page 95.]
    Mr. Loebsack. For the record, I have difficulties with the 
words like ``many'' and ``significant.'' I would like to know 
if there is any way--I would like to know precise numbers. If 
there is any way that you or our military can give us those 
numbers, I think that would be really important for all of us 
here who have to make decisions on these matters. So thank you 
very much, and I yield back my time unless Dr. Mathews would 
like to make a comment. You look like it.
    Dr. Mathews. No. I was just struck that we have been here 
almost three hours, and nobody has talked about the police, 
which are absolutely critical to establishing peace in Iraq, 
and where we have a real disaster.
    Mr. Loebsack. I might just make a comment. I think 
Congressman Andrews and I--now that things may have changed 
since February, but that was very disturbing when we were 
there, was the difficulty training police. And even prior to 
the training figure--trying to figure out who the people were 
who were being trained, and whether they were really folks we 
should be training as police. But again, I don't want to put 
words in Congressman Andrews's mouth, but I think he probably 
would agree with me while we were there. That is a good point 
and thank you.
    And I yield back. Thank you.
    The Chairman. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you.
    Dr. Kagan, how many times have you been to Iraq? And when 
was your most recent visit?
    Dr. Kagan. I have been to Iraq twice in early April and 
early May for about eight days each time, and I am about to 
return next week.
    Ms. Shea-Porter. And where were you at that time?
    Dr. Kagan. Each time I spent a couple of days in the Green 
Zone, and then I rode around with American units in battlefield 
circulations in various neighborhoods in Baghdad. I have been 
to Baquba, I have been to Taji, I have been to----
    Ms. Shea-Porter. Okay. In what capacity?
    Dr. Kagan. What capacity?
    Ms. Shea-Porter. Yes.
    Dr. Kagan. I was there as an observer.
    Ms. Shea-Porter. Who invited you?
    Dr. Kagan. I was there at the invitation of General 
Petraeus.
    Ms. Shea-Porter. I was there in March. Do you think it is a 
good sign or a bad sign that mortars are now hitting the Green 
Zone, and that people are having to walk around with their 
armor? Is it a meaningless sign, or is it a bad sign that maybe 
we are losing control right inside our embassy area?
    Dr. Kagan. Mortars have been hitting the zone all year.
    Ms. Shea-Porter. Let us correct that for a moment. Mortars 
have not been raining on them all year. There has been quite a 
significant change. Yes or no?
    Dr. Kagan. There has been an increase in mortar attacks, 
but there have been more mortar attacks----
    Ms. Shea-Porter. Thank you. In the interest of five 
minutes, thank you. I appreciate that.
    Do you agree with Peter Pace when he said--when he was 
asked if he was comfortable with the ability to respond to an 
emerging world threat, he said no, he was not comfortable 
because of the troops and all of the treasure in Iraq and the 
weariness of the troops. Yes or no, do you agree with General 
Pace on the comment?
    Dr. Kagan. I have been concerned about our ability to 
respond globally since 1997, and I am on the record about that.
    Ms. Shea-Porter. Do you agree with Max Boot, who stated in 
a subcommittee hearing last week that we could get the troops 
that we needed from people who wanted green cards, and that 
they could come from other countries and go fight for us and 
get green cards? Would that be a good policy? Please say yes or 
no.
    Dr. Kagan. I cannot answer that with a yes or no, 
Congresswoman. I can tell you that it is a good idea to think 
about offering citizenship for a reward for service. The 
details of that program I would have to think about in greater 
detail.
    Ms. Shea-Porter. Do we need them in order to continue 
fighting?
    Dr. Kagan. Do we need who?
    Ms. Shea-Porter. Do we need people who are not from our 
country but could use a green card?
    Dr. Kagan. Do we need them to continue the fight? No. I 
don't believe we need them to continue the fighting.
    Ms. Shea-Porter. Can you tell me specifically where you 
would get the troops? Because the testimony I have gotten from 
pretty much everybody is that our troops are exhausted, worn 
out, and we don't have troops that could continue. Where would 
you get the troops? And if you could just--like one sentence.
    Dr. Kagan. There are additional troops. We could either 
extend the tours of soldiers that are there--this has always 
been discussed by the Joint Staff--or we could redeploy 
National Guard units, which, as Dr. Perry suggested, would be 
very undesirable, but might become necessary. And I also 
believe that we need to work to expand the size of the ground 
forces as rapidly as possible.
    Ms. Shea-Porter. You and I both know that that would take a 
great deal of time, recruitment, training, et cetera. So your 
suggestion now is to extend the time that the troops are there?
    Dr. Kagan. Congresswoman, I don't work in the Joint Staff, 
and I can't tell you exactly how this would be done, but I can 
tell you that that is one method, and another method is 
redeploying National Guard forces who have already been there.
    Ms. Shea-Porter. Well, that is good because since you have 
gone as an observer, it is important for me to know what you 
observed.
    Now, when I spoke to General Petraeus and General Fill in 
March when I was there, General Petraeus and General Fill gave 
me widely varying numbers on the number of Iraqi military and 
Iraqi soldiers that were going to do the, quote, standing up 
for everybody. As a matter of fact, General Petraeus doubled 
the number in an hour. Do you think we have a better handle on 
the numbers of troops and Iraqi police now than we did in 
March? Do we have better data?
    Dr. Kagan. I believe that we do have an understanding of 
how many Iraqi Army soldiers there are, and how many Iraqi 
police there are, understanding that there is fluctuation in a 
force in wartime. But, yes, I think we have an understanding of 
that.
    Ms. Shea-Porter. And how do you think we got there? Because 
when I asked them and they asked about the difference, they 
said, well, it is hard to tell, people come and they get their 
bonuses, they leave, they don't come back again, they might 
die, they might be sick. How are we basing the data now?
    Dr. Kagan. Congresswoman, when I was there, briefings that 
I received suggested they put new programs in place to identify 
exactly how many Iraqi police there were, who they were, and 
make sure that people were not simply coming in to collect 
their bonuses, but that they were actually on the rolls.
    Ms. Shea-Porter. Okay. So we are doing better 
Administrationwise, administratively there.
    Dr. Kagan. That is what I was briefed when I was there, 
yes.
    Ms. Shea-Porter. Last question--or two questions. Are we 
there to bring democracy to Iraq? Is that your overriding 
belief, that we are there to bring democracy to Iraq?
    Dr. Kagan. Ma'am, I think that we are there in pursuit of 
American national interests.
    Ms. Shea-Porter. Is that to bring democracy to Iraq? Or 
could you tell me what it is exactly?
    Dr. Kagan. Well, I believe we have a vital national 
interest in not allowing Iraq to become a failed state and a 
haven for terrorists.
    Ms. Shea-Porter. Was it a failed state before we went in?
    Dr. Kagan. Obviously not.
    Ms. Shea-Porter. Last question, do you think we should do 
the same for Iran? Do you think we need to go into Iran?
    Dr. Kagan. Congresswoman, I have never advocated invading 
Iran.
    Ms. Shea-Porter. Thank you.
    The Chairman. Thank the gentlelady.
    Mr. Andrews, please.
    Mr. Andrews. Well, I would like to thank the panel for 
their endurance and their very trenchant observations. Thank 
you very much.
    Dr. Kagan, if today is a typical day in Iraq based upon the 
data of the last couple of months, there will be 145 attacks 
against someone. On the average, how many of those attacks are 
launched by al Qaeda?
    Dr. Kagan. A small number.
    Mr. Andrews. How small?
    Dr. Kagan. I don't know.
    Mr. Andrews. I am sure we don't either. If we could assume 
for a moment that by whatever strategy the al Qaeda forces in 
Iraq were completely vanquished, not one attack took place at 
all, there would still be a very significant level of violence 
going on every day in Iraq; would there not?
    Dr. Kagan. There might be, Congressman. It depends very 
much on the circumstances. I mean, we can't in reality simply 
pluck Iraq out of the country and make it go away.
    Mr. Andrews. There might be? There might be? I mean, let's 
look at this for a moment. In an instance where a Shia militia 
member attacks a group of Sunnis in a public marketplace, 
murders 70 or 80 people, are you saying that he might not do 
that if al Qaeda didn't exist, or he probably would do that if 
al Qaeda didn't exist?
    Dr. Kagan. What I am saying is that you actually have to 
ask the question, how do we make al Qaeda not exist? Because 
what we are attempting to do is establish security not simply 
by going after al Qaeda, but by taking measures that will 
establish security, but also make it----
    Mr. Andrews. How did we reduce the efficacy of al Qaeda in 
Anbar Province? How did that happen?
    Dr. Kagan. Well, two things happened. One is that the 
forces that we had there conducted a clear-and-hold operation 
in Ramadi over a long period of time. And the other is local 
tribal leaders, as that clear and hold was proceeding, turned 
against al Qaeda. Both were necessary, in my view.
    Mr. Andrews. Wouldn't you ascribe much more value to the 
second of those phenomena than the first?
    Dr. Kagan. I don't think you can separate them, 
Congressman. I think reports are that the sheiks would not have 
turned if we had not been there working to clear the area.
    Mr. Andrews. It occurs to me that the--let me ask one other 
question that goes to Dr. Mathews's question about the police. 
I visited the Jordanian Police Training Academy in February. It 
was a remarkable experience, given the fact that we have 
absolutely no idea who came into the process and what they did 
when they left after spending an annualized base of about 
$50,000 year training these individuals. I think we have 
trained about 180,000 police thus far. Why do we need soldiers 
in Baghdad to pacify the area if the police were at all 
effective? Why is this a military problem rather than a law 
enforcement problem?
    Dr. Kagan. Because it is a war, Congressman. It is an 
insurgency, and the insurgents are using military tactics, 
among other things. This is not a policing problem, however 
important the police are in counterinsurgence.
    Mr. Andrews. Right, Dr. Kagan. It is a civil war, and it is 
a civil war being fought with IEDs and being fought with small-
arms fire. Why aren't the police effective, the Iraqi Police 
effective, in identifying the people who are making IEDs and 
the places in which they are making them? Why aren't they 
effective?
    Dr. Kagan. In some areas the police are. In some areas the 
police have been very uneven, and this has been a major focus 
the of the command for some months now.
    Mr. Andrews. Why have they been ineffective in Baghdad?
    Dr. Kagan. In some areas of Baghdad, they have been 
ineffective. The police, as we all know, are infiltrated by the 
Jaish al Mahdi and other militia groups and have not been 
operating entirely in support, to say the least, of what we 
have been trying to do, and this has been a major focus of the 
command.
    Congressman Loebsack, I think, wanted numbers. As a result 
we have gotten, I believe, 7 of 9 police brigade commanders 
relieved, 17 of 24 police battalion commanders relieved for 
sectarian activities. The command has been working on this 
problem very hard, but there is still a long way to go.
    Mr. Andrews. Dr. Mathews, why do you think the police have 
been ineffective in cases where the police have been 
ineffective, the Iraqi Police?
    Dr. Mathews. Because we have largely been training militia 
who have different interests in pursuing their own interests.
    Mr. Andrews. To whom do you ascribe the loyalty of Iraqi 
Police forces? To whom are they loyal?
    Dr. Mathews. Well, I mean, these are very large numbers of 
people, but on the evidence, the bulk of whom we--that we have 
trained have been loyal to their own militia.
    Mr. Andrews. Why is that, in your opinion?
    Dr. Mathews. The militia saw an opportunity to gain power, 
to gain intelligence about American operations, to gain weapons 
and equipment.
    Mr. Andrews. Why aren't they loyal to the new Iraqi 
Government?
    Dr. Mathews. Well, it varies, you know, between--from one 
to the other. But I suppose the core answer is either they have 
prior loyalties or that this government doesn't command that 
broad a loyalty among the population.
    Mr. Andrews. I think it is far more the second.
    I thank the witnesses for your answers.
    The Chairman. And I thank the gentleman from New Jersey.
    Mr. Sestak has a follow-on question, please.
    Mr. Sestak. Thanks, Mr. Chairman.
    Your last comment, as I was talking, is, I think, correct; 
you know, it is a myriad approach. I have been taken by the ISG 
and by--what you wrote in your testimony--by the 
comprehensiveness that we have to have, a strategic approach, 
not a tactical one to this issue. I honestly believe Democrats 
have to turn from peer opposition increasingly to working 
toward the aftermath of this, because there will be an 
aftermath, and how well we handle it with a strategic, 
comprehensive, coherent approach to the Middle East is 
important.
    I am concerned about your comments in the sense that I 
remember in the Clinton Administration, Mr. Secretary, when two 
divisions for 60 days went down to C3, C4 and the uproar that 
ensued. Now we don't have any non-deployed units in a state of 
readiness that could deploy. This is really hurting our 
strategic readiness.
    So my--with that said--and I was taken with the ISG 
comment. There was one thing in there that I wonder if we step 
down--we talked about training and embedding people. Today out 
of the 160,000 troops we have there, about 48,000 are combat 
troops. I think we have 8,000 advisors right now. One think 
tank recently said we should have that be about 20,000 advisors 
and another 40,000 troops. When the Intelligence Community was 
here last week, they said they could not tell us with any 
accuracy, in fact, it would be an art, not a skill, which 
military units of the Iraqis we could safely embed troops in, 
not to have an issue where--because of their motivation and 
loyalty.
    Does that concern you, Dr. Perry, at all in the sense that 
leaving behind a rapid-reaction force, knowing that one-third 
of our troops there right now are combat, trying to have enough 
advisors or trainers embedded in units that could be of 
questionable loyalty--does that really mean much of a scale-
down in forces, or does that also put us to the point that I 
think is true, that come next spring we are to the real verge 
of truly, maybe permanently, for some time breaking our Army?
    Dr. Perry. Yes, that does concern me, Admiral Sestak. And 
at the time we made the recommendation, we made it after a very 
careful consultation with the commanders in Iraq at the time, 
General Chiarelli, General Casey and particularly General 
Dempsey, who is in charge of the training and a number of 
troops, small number of troops, we had embedded at that time. 
General Dempsey's view then was that this can be safely done, 
that there was no examples at all of the Iraqi troops turning 
against the Americans who were embedded in them. But I think 
that question has to be continually reexamined. What was true 
last September may not be true today.
    I must say that my own personal experience of that is in my 
grandson, who has had three deployments in Iraq. His last 
deployment was embedded in an Iraqi battalion. He felt 
completely safe relative to the soldiers with whom he was 
embedded.
    Mr. Sestak. My take on this, and the reason I raise it, is 
I am somewhat worried that the dynamics have changed since the 
ISG came out. And now there is much movement to say, let us see 
if that is the solution. We want almost a sequel two before 
they say March is the goal, before they say embed the trainers, 
because so much has happened.
    Dr. Perry. I agree completely with that, Admiral Sestak, 
and I would not support specific recommendations of the group 
without reexamining them in light of the current--in particular 
I would like to carefully reexamine the embedding 
recommendations.
    Mr. Sestak. That is what I meant earlier about a deadline.
    If I could, one last question, Dr. Kagan. You point out 
Fallujah, how it sunk into chaos after we kind of pulled back 
out. You talk about Tall' Afar and Anbar, and that there is 
some--and like in Anbar, there was some political will upon the 
tribal sheiks, things stabilized to some degree.
    What I ask is two quick questions because my time is just 
about up. To some degree, where you point out any success, it 
was because the military was not acting in a political vacuum. 
So as I step back, and having been out there with Senator 
Hagel, the best three days I have had in Congress, and hearing 
the highest leaders of this government say, the highest 
leaders, it is appeasement, the re-Baathification law--can I 
just finish one thing? Is there really any possibility of 
ending this thing the way you want to without truly breaking us 
militarily, our Army?
    Dr. Kagan. Well, Congressman, if I didn't think there was a 
way of ending this without breaking us, I wouldn't have 
advocated the strategy. I do think that it is possible. I think 
that it will be very difficult. The sort of political support 
that we were talking about in Fallujah and Tall' Afar and so 
forth was mainly support to conduct the security operation and 
willingness of the Iraqi Government to bear the onus for doing 
that. We have seen tremendous support from the Iraqi Government 
to conduct security operations, and I would add not simply 
against al Qaeda, but also against even Jaish al Mahdi 
militias, which months ago people were very concerned that this 
government wouldn't let us go after.
    I think that this is a long process. I think that it will 
take time for these political accords to be made. But I also 
think we can improve the security situation dramatically 
without necessarily having a hydrocarbons law pass, without 
necessarily having a de-Baathification law passed. I don't 
believe that those legislative benchmarks are essential to 
bringing the violence in Iraq down, and I think that the recent 
months hear me out on this. Violence has dropped even though 
benchmarks have not been met. Will it continue; will it be 
stabilized if there is no progress? Obviously not. But the 
question of timelines, I think, is more complicated than some 
would like to make it in this regard.
    The Chairman. I thank the gentleman, and I appreciate the 
gentleman's interest in the aftermath after the American and 
coalition forces do leave or limit their presence there.
    Maybe one of the witnesses can correct me as to the source 
of the quote. I think it was Clausewitz who said that no war 
ever ends the way it was anticipated. If you don't know to the 
contrary, we will turn it to Mr. Clausewitz, and with that, we 
will thank the gentleman for his questions, and the Ranking 
Member for sticking it out here with us.
    And, Dr. Perry, Dr. Mathews, Dr. Kagan, you have just been 
excellent today. We really appreciate you doing this, and it 
has been an excellent hearing. Thank you.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             July 18, 2007

=======================================================================



              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================


                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. But before that you mentioned that there are many 
Iraqis who are doing well, fighting well, they are brave and all the 
rest. I need more than many. Can you put any kind of numbers on that?
    Dr. Kagan. A number of reports are about to be released that will 
provide far greater detail and resolution on this issue than I could, 
including the Pentagon's 9010 report and the report of General James 
Jones produced by CSIS specifically on the Iraqi Security Forces, to 
say nothing of the testimony of General David Petraeus. Nevertheless, I 
will offer some information available from open sources on this 
important issue, including a map of the locations of the major Iraqi 
Army and National Police divisions included in the briefing given by 
Lieutenant General Raymond Odierno on August 17, appended at the end of 
this document. From that briefing and other reports, it is possible to 
state that elements of all 11 Iraqi Army divisions and 2 National 
Police divisions, as well as the Iraqi Special Forces, have been 
actively engaged in combat operations against al Qaeda in Iraq and/or 
Shi'a militias. General Odierno noted that the ISF ``average over 2,100 
company or above operations, over 20,000 independent patrols and over 
19,000 independent checkpoints.'' He described operations by the 2nd 
Brigade of the 7th Iraqi Infantry Division in Anbar, the 2nd Iraqi Army 
Division in Ninewah, and two brigades of the 4th Iraqi Army Division in 
Tamim Province (Kirkuk). During my various trips to Iraq in April, May, 
and July, I spoke with Iraqi Army and Police officers and American 
units partnered with them about operations by the 8th Iraqi Army 
Division in Diwaniyah, the 6th IA Division in Baghdad, and the 5th IA 
Division in Baqubah. Other reports describe continuous combat 
operations and patrols conducted by the 3rd IA Division in and around 
Tall Afar, the 10th IA Division around Nasiriyah, and the 9th and 11th 
IA Divisions in Baghdad in support of Operation Fardh al Qanoon. I 
spoke with various American and Iraqi officers about the operations of 
the two Iraqi National Police Divisions in Baghdad, as well as numerous 
regular Iraqi Police in the provinces I visited: Anbar, Salah-ad-Din, 
Baghdad, Babil, and Diyala. General Odierno noted that ``there are also 
over 100,000 Iraqi Police patrolling the streets.'' MNF-I reports as 
well as the recent National Intelligence Estimate also relate the 
successful completion of two rotations of Iraqi Army forces into 
Baghdad in support of Operation Fardh al Qanoon. I am not in a position 
to offer the Congressman precise figures about how many Iraqi soldiers 
or policemen are actively engaged in combat or patrolling, but I can 
state without hesitation that every division in the ISF is engaged in 
the fight, and the overwhelming majority of brigades within the Iraqi 
Army are as well. General Odierno commented in the August 17 briefing, 
``I cannot recall for you the last report of an ISF unit avoiding a 
fight.'' The story is by no means unreservedly positive. Sectarianism 
continues to prevail in some units, particular in the police but even 
in the Iraqi Army, and combat capability is uneven across the force. 
But the Iraqi Army and Police number over 300,000 personnel combined, 
and a high proportion of them are engaged actively in establishing and 
maintaining security in their country.
    [The map referred to can be found in the Appendix on page 92.]

                                  <all>

</pre></body></html>
